<html>
<title> - U.S. ENERGY INFORMATION ADMINISTRATION REPORT: ANALYSIS OF THE IMPACTS OF THE EPA'S CLEAN POWER PLAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        U.S. ENERGY INFORMATION
                         ADMINISTRATION REPORT:
                       ANALYSIS OF THE IMPACTS OF
                       THE EPA'S CLEAN POWER PLAN

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 24, 2015

                               __________

                           Serial No. 114-26

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                               ___________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-566PDF                     WASHINGTON : 2016                      

________________________________________________________________________________________              
   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8bfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a>  
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR           SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEVE KNIGHT, California             ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            
                            C O N T E N T S

                             June 24, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Alan Grayson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    14
    Written Statement............................................    15

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    17

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    18
    Written Statement............................................    19

                               Witnesses:

Dr. Howard Gruenspecht, Deputy Administrator, U.S. Energy 
  Information Administration (EIA)
    Oral Statement...............................................    20
    Written Statement............................................    23

Mr. Stephen Eule, Vice President for Climate and Technology, U.S. 
  Chamber of Commerce
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Susan Tierney, Senior Advisor, Analysis Group, Inc.
    Oral Statement...............................................    52
    Written Statement............................................    54

Dr. Kevin Dayaratna, Senior Statistician and Research Programmer, 
  The Heritage Foundation
    Oral Statement...............................................    75
    Written Statement............................................    77

Discussion.......................................................    86

             Appendix I: Answers to Post-Hearing Questions

Dr. Howard Gruenspecht, Deputy Administrator, U.S. Energy 
  Information Administration (EIA)...............................   120

Dr. Susan Tierney, Senior Advisor, Analysis Group, Inc...........   128

            Appendix II: Additional Material for the Record

Report submitted by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   150

Documents submitted Representative Gary Palmer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   165

 
                        U.S. ENERGY INFORMATION
                         ADMINISTRATION REPORT:
                       ANALYSIS OF THE IMPACTS OF
                       THE EPA'S CLEAN POWER PLAN

                              ----------                              


                        WEDNESDAY, JUNE 24, 2015

                  House of Representatives,
              Subcommittee on Environment &
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee on Environment] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bridenstine. The Subcommittee on the Environment 
and the Subcommittee on Energy will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``U.S. Energy Information 
Administration Report: Analysis of the Impacts of the EPA'S 
Clean Power Plan.'' I recognize myself for five minutes for an 
opening statement.
    Today's hearing focuses on the EPA's Clean Power Plan and 
the tremendous costs that it will place on the economy and the 
American people upon final implementation. I am particularly 
concerned about how this regulation will affect access to 
affordable and reliable electricity, and in fact, today the 
House will be voting on H.R. 2042, the Ratepayer Protection Act 
of 2015, which would prevent states from having to implement a 
state plan, or be subject to a federal plan, in order to comply 
with the Clean Power Plan if the Governor determines that such 
a plan would negatively affect ratepayers through increased 
rates. I am a cosponsor of this bill, and I anticipate its 
passage later today and encourage my colleagues to support the 
bill.
    I would like to thank Chairman Lamar Smith for requesting 
that the Energy Information Administration conduct this very 
important study at the heart of today's hearing. I look forward 
to hearing from the EIA about what their analysis reveals about 
the impacts of the Clean Power Plan.
    A few weeks ago, this Committee heard from industry groups 
on what will happen should the Clean Power Plan be finalized. 
We learned that the total compliance costs of the rule could be 
as high as $366 billion by 2030, according to a study by NERA 
Economic Consulting.
    Additionally, the regulation is projected to cause steep 
electricity price increases in 43 states including my own State 
of Oklahoma. Moreover, the Committee also heard testimony that 
the EPA is using questionable legal authority to promulgate the 
Clean Power Plan under section 111 of the Clean Air Act. In 
fact, Laurence Tribe, a leading environmental and 
constitutional law professor and a mentor to President Obama, 
recently referred to the method by which this rule was enacted 
as ``burning the Constitution.''
    I understand that some of our witnesses here today have 
analyzed the supposed benefits of the EPA claims--some of the 
benefits that EPA claims the rule provides and have actually 
found that the costs outweigh the benefits. Additionally, the 
EPA's analysis of the benefits of the Clean Power Plan rely 
heavily on the ``social cost of carbon,'' a value determined by 
the government to be the cost of carbon in the atmosphere. The 
social cost of carbon, as we will hear today, is a value 
determined without transparency with a very questionable 
economic model. The fact that this Administration would rely so 
heavily upon the social cost of carbon for its rulemaking calls 
into question the entire purpose of these rules. So we have a 
rule that will be extremely costly, relies on dubious 
assumptions, and this Committee has also heard testimony at 
previous hearings that the results in reductions in carbon 
emissions and global temperature decreases which, according to 
the EPA's own models, will be negligible on a global scale. So 
according to the EPA, the results of this will be negligible on 
a global scale, according to the EPA's own models. This is a 
continuation of this Administration's war on the poor.
    I will once again remind my colleagues that while we might 
be able to absorb electricity rate increases, many of our 
constituents do not have that ability. This is especially true 
in my home State of Oklahoma, which relies heavily on coal for 
electricity generation and as a result enjoys electricity 
prices which are far below the national average. Coal, and to 
an extent even natural gas, are the sources of fuel this rule 
will phase out, and this is the true intention of this 
Administration's agenda. This rule will impose tremendous costs 
on the American people with very few benefits, and it is my 
hope this hearing highlights how misguided the Clean Power Plan 
truly is.
    I thank all of our witnesses for testifying today and 
specifically thank the Energy Information Administration for 
conducting this important report. The Clean Power Plan and the 
impact that it will have on the American people is an important 
matter that this Committee should investigate. I look forward 
to the testimony of all of our witnesses as we examine the 
implications of this regulation.
    [The prepared statement of Chairman Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Today's hearing focuses on EPA's Clean Power Plan and the 
tremendous costs that will placed on the economy and the American 
people upon final implementation. I am particularly concerned about how 
this regulation will affect access to affordable and reliable 
electricity, and in fact today the House will be voting on H.R. 2042, 
the Ratepayer Protection Act of 2015, which would prevent states from 
having to implement a state plan, or be subject to a federal plan, in 
order to comply with the Clean Power Plan if the Governor determines 
that such a plan would negatively affect ratepayers through increased 
rates. I am a cosponsor of this bill and I anticipate its passage later 
today and encourage my colleagues to support the bill.
    I would like to thank Chairman Smith for requesting that Energy 
Information Administration conduct this very important study at the 
heart of today's hearing. I look forward to hearing from the EIA about 
what their analysis reveals about the impacts of the Clean Power Plan.
    A few weeks ago, this Committee heard from industry groups on what 
will happen should the Clean Power Plan be finalized. We learned that 
the total compliance costs of the rule could be as high as $366 billion 
by 2030, according to a study by NERA Economic Consulting. 
Additionally, the regulation is projected to cause steep electricity 
price increases in 43 states.
    Moreover, the Committee also heard testimony that the EPA is using 
questionable legal authority to promulgate the Clean Power Plan under 
section 111 of the Clean Air Act. In fact, Laurence Tribe, a leading 
environmental and constitutional law professor and mentor to President 
Obama, recently referred to the method by which this rule was enacted 
as ``burning the Constitution.''
    I understand that some of our witnesses here today have analyzed 
the supposed benefits that EPA claims the rule provides and have found 
that the costs outweigh these benefits. Additionally, the EPA's 
analysis of the benefits of the Clean Power Plan relies heavily on the 
``social cost of carbon,'' a value determined by the government to be 
the cost of reducing the amount of carbon in the atmosphere. The social 
cost of carbon, as we will hear today, is a value determined without 
transparency with a very questionable economic model. The fact that 
this Administration would rely so heavily upon the social cost of 
carbon for its rulemaking calls into question the entire purpose of 
these rules.
    So we have a rule that will be extremely costly, relies on dubious 
assumptions and, as this Committee has also heard testimony at previous 
hearings results in reductions in carbon emissions and global 
temperature decreases which, according to EPA's own models, will be 
negligible on a global scale.
    This is a continuation of this administration's ``war on the 
poor.'' I will once again remind my colleagues that while we might be 
able to absorb electricity rate increases, many of our constituents do 
not have that ability. This is especially true in my home state of 
Oklahoma, which relies heavily on coal for electricity generation and 
as a result enjoys electricity prices which are far below the national 
average.
    Coal--and to an extent natural gas--are the sources of fuel this 
rule will phase out, and is the true intention of this administration's 
agenda.
    This rule will impose tremendous costs on the American people with 
very few benefits, and it is my hope this hearing highlights how 
misguided the Clean Power Plan truly is.
    I thank all of our witnesses for testifying today and specifically 
thank the Energy Information Administration for conducting this 
important report. The Clean Power Plan and the impact that it will have 
on the American people is an important matter that this Committee 
should investigate. I look forward to the testimony of all of our 
witnesses as we examine the implications of this regulation.

    Chairman Bridenstine. I now recognize the Ranking Member, 
the gentlewoman from Oregon, for an opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our witnesses for being here today to discuss the EPA's 
Clean Power Plan and the Energy Information Administration's 
analysis of the proposed rule.
    Just at the outset, I want to explain I have another 
hearing today. It does not indicate my lack of interest in this 
very important subject but I'll be coming and going.
    So the mission of EPA is simple: to protect human health 
and the environment. The goal of the Clean Power Plan is 
equally simple: to cut carbon emissions from the largest 
source, the energy sector, so that we can lessen the effects of 
climate change on our states, our country, and on our planet.
    The need to reduce greenhouse gas emissions is broadly 
accepted, and the consequences of inaction recognized, 
including in public comments on the proposed rule submitted by 
14 states, including my home State of Oregon. In those 
comments, the states highlight the negative effects they are 
experiencing from the changing climate. They outline the harm 
of increased wildfires, severe drought, heatwaves, rising seas, 
and more severe weather events. They state that these impacts 
are directly harming the health and welfare of residents in our 
states and causing significant economic damage. These 14 states 
are supportive of EPA's Clean Power Plan, indicating that the 
proposed rule represents the most significant component of our 
national effort to reduce carbon emissions throughout our 
economy. And the good news is that they have not been waiting 
for the federal government to take action. In 2007, in fact, 
when I was in the Oregon legislature, the Oregon legislature 
set an ambitious goal of reducing statewide emissions 75 
percent below 1990 levels by 2050. A companion bill set the 
goal of having up to 25 percent of energy generated through 
renewable sources by 2025. I'm proud to say that in 2010, 
Oregon achieved its first milestone. It stopped the growth of 
greenhouse gas emissions and began cutting carbon pollution.
    Some contend that environmental regulations might hurt the 
economy, and we heard that in the opening statement. This 
hasn't been the case in Oregon. Through the implementation of 
energy efficiency and renewable energy policies, Oregon has 
produced more than 2,000 full-time jobs, added more than $2 
billion to the state's economy, and customers have saved on 
their energy bills.
    Fortunately, Oregon does not stand alone in its success of 
cutting carbon pollution and strengthening its economy, and I'm 
looking forward to learning more from Dr. Tierney about her 
examination of the states involved in RGGI, the Regional 
Greenhouse Gas Initiative.
    Turning back to the focus of today's hearing, EIA's 
analysis of the Clean Power Plan, we find additional support 
for the idea that we can achieve meaningful carbon reductions 
with a minimal effect on the economy. EIA's analysis shows that 
under the Clean Power Plan, carbon pollution will be reduced by 
34 percent by 2030 and we will reach the same level of GDP just 
15 days later than we would if the proposed rule was not 
implemented. Furthermore, the EIA's analysis does not take into 
account the health benefits associated with the proposed rule. 
If those values, the EPA estimates at between $49 and $84 
billion in 2030, were factored in, we'd likely see increased 
expansion of the economy.
    EIA's analysis also highlights the important role that 
renewable energy technologies will play in cutting carbon 
emissions. Again, contrary to the opinion that regulations harm 
the economy, new and innovative technologies are born from 
regulatory incentives, and are a key component of achieving 
reductions in carbon emissions.
    The Clean Power Plan provides flexibility to states. I'm 
looking forward to learning more about how states can meet 
their obligations under the proposed rule. Additionally, I'd 
like to get a better understanding of the assumptions EIA used 
in its modeling and what additional information their model can 
and cannot tell us about the potential to reduce carbon 
emissions under the EPA's Clean Power Plan.
    Finally, I'd like to end by reiterating that past attempts 
to undermine environmental regulation with inaccurate and 
exaggerated claims have been proven wrong time and time again. 
We were told the lights would go out and that the economy would 
crash. We'll likely hear those arguments again today, but since 
the passage of the Clean Air Act in the 1970s, the United 
States' economy has tripled in size.
    The Clean Power Plan represents a critical first step in 
our efforts to reduce harmful pollution and combat the harm 
we're seeing because of climate change. American ingenuity will 
allow us to be global leaders in these efforts and in the 
creation of the clean energy economy. We can and must do better 
for current and future generations.
    Thank you, Mr. Chairman, and again thank you to our 
witnesses for being here this morning, and I yield back the 
balance of my time.
    [The prepared statement of Ms. Bonamici follows:]

            Prepared Statement of Subcommittee on Oversight
                Minority Ranking Member Suzanne Bonamici

    Thank you, Mr. Chairman, and thank you to our witnesses for being 
here today to discuss the EPA's Clean Power Plan and the Energy 
Information Administration's analysis of the proposed rule.
    The mission of EPA is simple--to protect human health and the 
environment. The goal of the Clean Power Plan is equally simple--to cut 
carbon emissions from the largest source, the energy sector, so that we 
can lesson the effects of climate change on our states, our country, 
and our planet.
    The need to reduce greenhouse gas emissions is broadly accepted, 
and the consequences of inaction recognized, including in public 
comments on the proposed rule submitted by 14 states, including my home 
state of Oregon. In those comments, the states highlight the negative 
effects they are experiencing from the changing climate. They outline 
the harm of increased wildfires, severe drought, heatwaves, rising 
seas, and more severe weather events. They state that ``these impacts 
are directly harming the health and welfare of residents in our states 
and causing significant economic damage.''
    These 14 states are supportive of EPA's Clean Power Plan, 
indicating that the ``proposed rule represents the most significant 
component of our national effort to reduce carbon emissions throughout 
our economy.'' And the good news is that they have not been waiting for 
the federal government to take action.
    In 2007, Oregon set an ambitious goal of reducing statewide 
emissions 75 percent below 1990 levels by 2050; a companion bill set 
the goal of having up to 25% of energy generated through renewable 
sources by 2025. I'm proud to say that in 2010, Oregon achieved its 
first milestone--it stopped the growth of greenhouse gas emissions and 
began cutting carbon pollution.
    Some contend that environmental regulations might hurt the economy. 
This hasn't been the case in Oregon. Through the implementation of 
energy efficiency and renewable energy policies, Oregon has produced 
more than 2,000 full-time jobs, added more than $2. billion to the 
state's economy, and customers have saved on their energy bills.
    Fortunately, Oregon does not stand alone in its success of cutting 
carbon pollution and strengthening its economy, and I'm looking forward 
to learning more from Dr. Tierney about her examination of the states 
involved in the Regional Greenhouse Gas Initiative (REGGI.)
    Turning back to the focus of today's hearing, EIA's analysis of the 
Clean Power Plan, we find additional support for the idea that we can 
achieve meaningful carbon reductions with minimal effect on the 
economy. EIA's analysis shows that under the Clean Power Plan, carbon 
pollution will be reduced by 34 percent by 2030 and we will reach the 
same level of GDP just 15 days later than we would if the proposed rule 
was not implemented. Furthermore, the EIA's analysis does not take into 
account the health benefits associated with the proposed rule; if those 
values, which EPA estimates at between $49 and $84 billion in 2030, 
were factored in, we'd likely see increased expansion of the economy.
    EIA's analysis also highlights the important role that renewable 
energy technologies will play in cutting carbon emissions. Again, 
contrary to the opinion that regulations harm the economy, new and 
innovative technologies are born from regulatory incentives, and are a 
key component of achieving reductions in carbon emissions.
    The Clean Power Plan provides flexibility to states, and I'm 
looking forward to learning more about how states can meet their 
obligations under the proposed rule. Additionally, I'd like to get a 
better understanding of the assumptions EIA used in its modeling and 
what additional information their model can and cannot tell us about 
the potential to reduce carbon emissions under EPA's Clean Power Plan.
    Finally, I'd like to end by reiterating that past attempts to 
undermine environmental regulation with inaccurate and exaggerated 
claims have been proven wrong time and time again. We were told the 
lights would go out and that the economy would crash. We will likely 
hear those arguments again today, but since the passage of the Clean 
Air Act in the 1970s, the United States' economy has tripled in size.
    The Clean Power Plan represents a critical first step in our 
efforts to reduce harmful pollution and combat the harm that we are 
seeing because of climate change. American ingenuity will allow us to 
be global leaders in these efforts and in the creation of the clean 
energy economy. We can and must do better for current and future 
generations.
    Thank you, Mr. Chairman, and again thank you to our witnesses for 
being here this morning.
    I yield back the balance of my time.

    Chairman Bridenstine. I thank Ms. Bonamici for her opening 
statement.
    With unanimous consent, I'd like to submit for the record 
the report, the Energy Information Administration report titled 
``Analysis of the Impacts of the Clean Power Plan.'' Without 
objection, so ordered.
    [The information appears in Appendix II]
    Chairman Bridenstine. I'd now like to turn it over to the 
Ranking--or I'm sorry, the Chairman of the Subcommittee on 
Energy, Mr. Weber from Texas.
    Mr. Weber. Thank you. Good morning, and welcome to today's 
joint Subcommittee hearing examining the EPA's regulation for 
existing power plants, known as the Clean Power Plan.
    Today, we will hear from the Energy Information 
Administration regarding their recent analysis of the EPA's 
plan, as well as a panel of expert analysts with experience 
assessing EPA regulations. So to our expert analysts, I want to 
say thank you for being here.
    The Energy Information Administration, or EIA, is housed at 
the Department of Energy, and provides economic analysis on 
energy use around the world. EIA was designed to serve as a 
nonpartisan analytical organization so policymakers could make 
sound decisions based on reliable economic data.
    Accordingly, after the Obama Administration's Clean Power 
Plan was released, Chairman Lamar Smith requested that the EIA 
conduct economic modeling to determine the impact the rule 
would have on the American economy if it was fully implemented. 
The EIA's analysis shows that the EPA's rule could cause 
significant damage to the economy, increasing electricity 
prices, causing job losses, and limiting economic growth long 
into the future. And might I add, at a time when the President 
is pushing for TPP in an effort to get on top of the world 
economy, this seems to be antithetical that we are actually 
going to hurt our own economy. By increasing the cost of 
electricity, the Clean Power Plan would make it harder for the 
American people to start a business or make ends meet. A family 
of four could see thousands of dollars in increased costs per 
year as the Clean Power Plan is implemented, with costs peaking 
in 2025 when the average family will see an increase in cost of 
over $1,700 per year. Now, folks, where is that money going to 
come from? It is a little less than 150 bucks a month. They're 
not going to spend it in other sectors of the economy.
    You know, the Obama Administration admits that these 
regulations will not stop climate change. Data produced by the 
EPA show that the Clean Power Plan would eliminate less than 
one percent of global carbon emissions. Let me repeat that: 
Data produced by the EPA show that the Clean Power Plan would 
eliminate less than one percent of global carbon emissions. But 
what the EIA's report and many other independent assessments of 
the Clean Power Plan confirm is that eliminating affordable, 
reliable power will increase the energy prices for who? The 
American people. Higher energy prices will increase costs 
across the Nation from electricity to gasoline to food. To echo 
my colleague's comments earlier, the other Chairman of the 
Environmental Committee, that's going to hurt the poor. Higher 
costs will drive companies out of business, kill good jobs, and 
leave even more Americans unemployed.
    The Obama Administration claims these regulations will lead 
to new, innovative energy technologies but innovation simply 
will not occur in an overregulated, lagging economy. And might 
I add that where the permits lag, the economy even lags worse. 
Driving the American economy over a cliff is not going to kick-
start energy innovation. It's just not going to do it.
    I want to thank Dr. Gruenspecht and all of our witnesses 
for testifying to the Committee today, and I look forward to a 
review of the impact of EPA's proposal. From our witnesses' 
prepared testimony alone, it's clear that the EPA's Clean Power 
Plan will have a significant impact on the American economy, 
and not in a good way. We simply cannot afford to hijack 
economic growth by regulating affordable energy out of 
business. Instead, the federal government should focus on 
investing in research and development, and breaking down the 
regulatory barriers that stop the development of innovative 
technology in its tracks. Getting the federal government out of 
the way will make more affordable, reliable power available to 
America's job creators and thereby grow our economy.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Weber follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Randy K. Weber

    Good morning and welcome to today's Joint Subcommittee hearing 
examining the EPA's regulation for existing power plants, known as the 
Clean Power Plan. Today, we will hear from the Energy Information 
Administration regarding their recent analysis of the EPA's plan, as 
well as a panel of expert analysts with experience assessing EPA 
regulations.
    The Energy Information Administration, or EIA, is housed at the 
Department of Energy, and provides economic analysis on energy use 
around the world. EIA was designed to serve a non-partisan analytical 
organization, so policy makers could make sound decisions based on 
reliable economic data.
    Accordingly, after the Obama Administration's Clean Power Plan was 
released, Chairman Smith requested that the EIA conduct economic 
modeling to determine the impact the rule would have on the American 
economy if it was fully implemented.
    The EIA's analysis shows that the EPA's rule could cause 
significant damage to the economy, increasing electricity prices, 
causing job losses, and limiting economic growth long into the future. 
By increasing the cost of electricity, the Clean Power Plan would make 
it harder for the American people to start a business or make ends 
meet.
    A family of four could see thousands of dollars in increased costs 
per year as the Clean Power Plan is implemented, with costs peaking in 
2025 when the average family will see an increase in cost of over $1700 
per year.
    The Obama Administration admits that these regulations will not 
stop climate change. Data produced by the EPA show that the Clean Power 
Plan would eliminate less than one percent of global carbon emissions.
    But what the EIA's report and many other independent assessments of 
the Clean Power Plan confirm is that eliminating affordable, reliable 
power will increase the energy prices for the American people. Higher 
energy prices will increase costs across the nation --from electricity 
to gasoline to food. Higher costs will drive companies out of business, 
kill good jobs, and leave even more Americans unemployed. The Obama 
Administration claims these regulations will lead to new, innovative, 
energy technologies. But innovation simply does not occur in an 
overregulated, lagging economy.
    Driving the American economy over a cliff is not going to kick 
start innovation in energy technology. I want to thank Mr. Gruenspecht 
and all our witnesses for testifying to the Committee today, and I look 
forward to a review of the impact of EPA's proposal.
    From our witnesses prepared testimony alone, it's clear that the 
EPA's Clean Power Plan will have a significant impact on the American 
economy.
    We can't afford to high-jack economic growth by regulating 
affordable energy out of business. Instead, the federal government 
should focus on investing in research and development, and breaking 
down the regulatory barriers that stop the development of innovative 
technology in its tracks.
    Getting the federal government out of the way will make more 
affordable, reliable power available to America's job creators and grow 
our economy.

    Chairman Bridenstine. Well, I'd like to thank the Chairman 
of the Subcommittee on Energy for his words at this joint 
hearing of our two Committees.
    I'd like to now recognize the Ranking Member of the 
Subcommittee on Energy, Mr. Grayson, for his opening statement.
    Mr. Grayson. Thank you, Chairman Bridenstine and Chairman 
Weber, for holding this joint hearing, and thank you to our 
witnesses for agreeing to participate this morning.
    Today, we will be discussing the Energy Information 
Administration's recent analysis of the Environmental 
Protection Agency's Clean Power Plan. We've been hearing 
already before the witnesses start to testify about economics, 
the economy, the American economy, what effect this will have 
on jobs and so on. Let's talk about some basic economic 
principles.
    These power plants that we have now are generating our 
power that are not renewable are creating pollution. Pollution 
is an externality. It's basically like dumping your trash in 
your neighbor's backyard. That's what these plants are doing 
right now.
    Now, they could be dumping their trash in their own 
backyard. That's often what the Clean Power Plan will require 
them to do through carbon sequestration and so on. But right 
now they're dumping their trash in the neighbor's backyard. 
Why? Because they don't want the trash in their backyard, and 
it would cost money to them to make any other arrangement 
except to dump it in the neighbor's backyard.
    What is the effect of that? Enormous. Carbon pollution 
causes tremendous difficulties, not only the traditional well-
known difficulty called global warming, climate disruption, and 
so on, but also impacts on our health and impacts on our 
immediate environment, the neighborhoods. We see heatwaves, we 
see droughts, we see smog, we see extreme hurricanes and 
flooding more and more. We have more ticks and mosquitoes in 
our neighborhoods spreading Lyme disease and West Nile virus. 
Already, 126 million Americans live in areas where pollution is 
so bad that it doesn't meet the government standards 
established 43 years ago. Forty-three years ago.
    So I don't think we need to be asking ourselves what can we 
do to make it possible for industry to dump more trash over the 
fence into the neighbor's yard. I think we should be asking 
ourselves what do we need to do to internalize those 
externalities? What do we need to do to make sure that 
industries that pollute, that damage the environment are forced 
to clean themselves up, and there's no study that I can picture 
that will tell me otherwise because we're talking about basic 
logic and basic principles here.
    Now, fundamentally, the Clean Power Plan seeks to protect 
the health and safety of our citizens while fostering the 
growth of new and emerging sectors of our economy. The Clean 
Power Plan incentivizes the development and deployment of 
innovative new energy technologies, and seeks to reduce 
respiratory illnesses and the onset of disease resulting from 
air pollution. According to Bloomberg New Energy Finance's 
recent Global Trends report, an estimated 103 gigawatts of 
renewable power capacity, including large hydropower projects, 
were built in 2014 alone. Furthermore, renewables were 48 
percent of the net power capacity added worldwide in 2014 
alone. In total, the world invested $270 billion in renewable 
technologies. And if we're speaking about the economy and jobs, 
this is an economic opportunity that America should seek to 
capture, not shun.
    Clearly, the world is pursuing clean energy technologies 
with us or without us. Any effort to undermine those 
investments, including by stopping the Clean Power Plan from 
moving forward, is incredibly short-sighted and short-changes 
our workers and our health. America needs new energy solutions, 
and it should position itself as an industry leader in pursuit 
of these technologies. We know that the electricity and power 
system is changing even as we speak. America faces a future 
with low, or even negative, growth in electricity demand, 
resulting in a negative impact on utilities that count profit 
by the volume of electricity sold. But that simply means that 
Americans don't need as much. That's what that means. It 
doesn't mean that jobs are being lost that cannot be recovered.
    More people are generating their own electricity, their own 
energy on their own rooftops, and the entire system is shifting 
from central power generation to different combinations of 
centralized and distributed power generation. Predictive 
models, such as the Energy Information Administration's, 
provide an important tool for us to explore the possible 
impacts of different scenarios and what our energy future will 
look like under each. These models don't define the future, but 
they do help us to identify actions we can take that will have 
meaningful impacts. These insights can be used to focus efforts 
to address the energy industry challenges that are happening 
with or without the Clean Power Plan.
    I thank each of these witnesses for being here today, and 
please keep in mind that we're talking about pollution. I 
hesitate to think that any of my colleagues would come out and 
say they're pro-pollution, but that's essentially what it means 
when you say that you're against clean power.
    I yield back.
    [The prepared statement of Mr. Grayson follows:]

              Prepared Statement of Subcommittee on Energy
                  Minority Ranking Member Alan Grayson

    Thank you, Chairman Bridenstine and Chairman Weber, for holding 
this joint hearing, and thank you to our witnesses for agreeing to 
participate this morning.
    Today, we will be discussing the Energy Information 
Administration's recent analysis of the Environmental Protection 
Agency's Clean Power Plan.
    Fundamentally, the Clean Power Plan seeks to protect the health and 
safety of our citizens while fostering the growth of new and emerging 
sectors of our economy.
    The Clean Power Plan incentivizes the development and deployment of 
innovative new clean energy technologies, and seeks to reduce 
respiratory illnesses and the onset of diseases resulting from air 
pollution.
    According to Bloomberg New Energy Finance's recent Global Trends 
report, an estimated 103 gigawatts of renewable power capacity, 
excluding large hydropower projects, were built in 2014.
    Further, renewables were 48 percent of the net power capacity added 
worldwide in 2014. In total, the world invested 270 billion dollars in 
renewable technologies. This is a financial market America should seek 
to capture.
    Clearly, the world is pursuing clean energy technologies. Any 
effort to undermine those investments, including by stopping the Clean 
Power Plan from moving forward is short-sighted.
    America needs new energy solutions, and it should position itself 
as an industry leader in the pursuit of these technologies.
    We know our electricity system is experiencing a transformative 
moment. America faces a future with low, or even negative, growth in 
electricity demand, resulting in a negative impact on utilities that 
count profits by the volume of electricity sold. More people are 
generating their own energy, and the entire system is shifting from 
central power generation to different combinations of centralized and 
distributed power generation.
    Predictive models, such as the Energy Information Administration's, 
provide an important tool for us to explore the possible impacts of 
different scenarios and what our energy future will look like under 
each. These models don't define the future, but they do help us 
identify actions we can take that will have meaningful impacts. These 
insights can be used to focus efforts to address the energy industry 
changes that are happening with, or without, the Clean Power Plan.
    I thank each of our witnesses for being here today, and I look 
forward to hearing more about how EIA's analysis will impact the 
discussion surrounding America's energy future.
    Thank you, Mr. Chairman, I yield back my remaining time.

    Chairman Bridenstine. Thank you, Mr. Grayson.
    I now recognize the Chairman of the full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman, and also I thank 
the other Chairmen who are here as well, Mr. Bridenstine and 
Mr. Weber.
    The Environmental Protection Agency is seeking to pursue 
the most aggressive regulatory agenda in its 44-year history. 
One of the many regulations the agency looks to promote is the 
so-called Clean Power Plan. The President's power plan is 
nothing more than a power grab to give the government more 
control over Americans' daily lives. These regulations stifle 
economic growth, destroy American jobs, and increase energy 
prices. That means everything will cost more, from electricity 
to gasoline to food.
    Today we will hear from witnesses who have analyzed the 
costs and benefits of the EPA's Clean Power Plan. Their 
analysis clearly demonstrates that the costs far outweigh any 
minor environmental benefits. The EPA claims their regulations 
will slow global climate change and reduce carbon emissions. 
But heavy-handed regulations and arbitrary emission targets 
will do lasting damage to our economy, all for little 
environmental benefit. In fact, EPA's data show that the Clean 
Power Plan regulation would eliminate less than one percent of 
global carbon emissions and it would reduce sea-level rise by 
only 1/100th of an inch, the thickness of three sheets of 
paper. Even if all of the carbon emissions in the United States 
were reduced to zero, world temperatures would decrease by only 
.2 degrees Celsius, and the temperature increases avoided as a 
result of the Clean Power Plan would be only .003 degrees 
Celsius, only three thousandths of a degree.
    These measures will impose tremendous costs on every 
American. The Clean Power Plan will have an even greater impact 
on those who live on fixed incomes, such as the elderly and the 
poor, who are the most vulnerable to price increases for some 
of our most basic necessities like food and electricity.
    I thank the Energy Information Administration for 
conducting its analysis of the impacts of the Clean Power Plan, 
and for testifying before the Committee today. This important 
study shows what many have said since the regulation was 
proposed: that regulating carbon emissions in the manner put 
forward by the Administration will raise the cost of 
electricity and negatively impact our Nation's economy.
    Today, the whole House will consider H.R. 2042, the 
Ratepayer Protection Act. This bill allows states to decide 
whether the so-called Clean Power Plan is in the best interest 
of the state, given the tremendous costs it will impose on 
American families.
    Our panel this morning includes experts who have conducted 
extensive analysis of the costs and benefits of EPA's 
regulations. I look forward to all our witnesses' testimony on 
how the Clean Power Plan will affect the American people.
    The EPA should not saddle the American people with 
extensive and burdensome regulations, especially if the 
regulations have little environmental impact.
    Mr. Chairman, also let me apologize to the witnesses. I'm a 
member of the Judiciary Committee, and our markup of a bill 
that I cosponsored began 30 minutes ago, so I'm going to need 
to excuse myself to head over there, but I hope to be back, and 
certainly this will be a very informative and necessary hearing 
to have. I yield back.
    [The prepared statement of Chairman Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                        Chairman Lamar S. Smith

    Thank you Chairman Weber and Chairman Bridenstine for holding 
today's hearing.
    The Environmental Protection Agency is seeking to pursue the most 
aggressive regulatory agenda in its 44 year history. One of the many 
regulations the agency looks to promote is the so-called Clean Power 
Plan.
    The president's ``Power Plan'' is nothing more than a ``Power 
Grab'' to give the government more control over Americans' daily lives. 
These regulations stifle economic growth, destroy American jobs, and 
increase energy prices. That means everything will cost more--from 
electricity to gasoline to food.
    Today we will hear from witnesses who have analyzed the costs and 
benefits of EPA's Clean Power Plan. Their analysis clearly demonstrates 
that the costs far outweigh any minor environmental benefits.
    The EPA claims their regulations will slow global climate change 
and reduce carbon emissions. But heavy-handed regulations and arbitrary 
emission targets will do lasting damage to our economy, all for little 
environmental benefit.
    In fact, EPA's data show that the Clean Power Plan regulation would 
eliminate less than one percent of global carbon emissions. And it 
would reduce sea level rise by only 1/100th of an inch, the thickness 
of three sheets of paper.
    Even if all of the carbon emissions in the United States were 
reduced to zero, world temperatures would decrease by only 0.2 degrees 
Celsius. Also, according to an analysis conducted by NERA Economic 
Consulting, the temperature increases avoided as a result of the Clean 
Power Plan would be only 0.003 degrees Celsius: three one-thousandths 
of one degree.
    These measures will impose tremendous costs on every American. The 
Clean Power Plan will have an even greater impact on those who live on 
fixed incomes, such as the elderly and the poor, who are the most 
vulnerable to price increases for some of our most basic necessities 
like food and electricity.
    I thank the Energy Information Administration for conducting its 
analysis of the impacts of the Clean Power Plan, and for testifying 
before the Committee today. This important study shows what many have 
said since the regulation was proposed: that regulating carbon 
emissions in the manner put forward by the Administration will raise 
the cost of electricity and negatively impact our nation's economy.
    Today, the whole House will consider H.R. 2042, the Ratepayer 
Protection Act. This bill allows states to decide whether the so-called 
Clean Power Plan is in the best interest of the state, given the 
tremendous costs it will impose on American families.
    Our panel this morning includes experts who have conducted 
extensive analysis of the costs and benefits of EPA's regulations. I 
look forward to all our witnesses' testimony on how the Clean Power 
Plan will affect the American people.
    The EPA should not saddle the American people with extensive and 
burdensome regulations, especially if the regulations have little 
environmental impact.

    Chairman Bridenstine. Thank you, Mr. Chairman.
    I now recognized the Ranking Member of the full Committee 
for a statement, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thanks 
to all of our witnesses for being here this morning.
    EPA's Clean Power Plan, like the rest of President Obama's 
Climate Action Plan, is the bold step forward our Nation needs 
to address the impacts of climate change. Severe drought, 
record temperatures, and an increase in heavy rain events are 
just a few examples of what Americans are confronting now and 
can expect to see more frequently in the coming years. The 
scientific evidence confirms that we need to act now to lessen 
these impacts.
    Leaders in the faith community--and I recently met with all 
the heads of the conventions of the African American Baptist, 
Methodist and Evangelical sectors of the religious community--
that are crying out for attention to address climate change and 
they are starting a national movement. The recently issued 
encyclical by Pope Francis notes that climate change represents 
one of the principal challenges facing humanity and that the 
poor will be disproportionately affected by its impacts. We 
know now, and it has been said this morning, that the poor and 
elderly will be greatly impacted except that the cost that was 
mentioned, I'm talking about the healthcare that they will 
suffer these effects. Pope Francis also states that there is an 
urgent need to develop policies so that in the next few years, 
the emission of carbon dioxide and other highly polluting gases 
can be drastically reduced.
    I hope that we, in Congress, will stop obstructing EPA's 
efforts--they're only functioning to protect the American 
people's health--and instead listen to our scientists, to our 
religious leaders, and to the American people by supporting 
policies that will cut carbon pollution. To that end, power 
plants are the largest source of carbon pollution, and cutting 
emissions from this sector will be the key to any solution. 
That is why I support the Clean Power Plan.
    It sets reasonable limits that take into account the 
characteristics of each state. It is based on strategies 
already in use such as improving energy efficiency and 
encouraging the deployment of renewables. And finally, it 
provides the states with flexibility. EPA is not prescribing a 
specific set of measures. States will choose what goes into 
their plans, and they can work alone or as part of a multistate 
effort to achieve meaningful reductions.
    Today we will be discussing the Energy Information 
Administration's analysis of the Clean Power Plan, and I 
suspect that some Members and witnesses will be making the same 
old argument that EPA regulations are killing the economy and 
jobs. On the contrary. We know that this just isn't true. It 
isn't what EIA's analysis shows. Rather, as history has shown 
us time and again, stricter pollution limits have invariably 
led to innovation and to the creation of new technologies that 
end up creating jobs while protecting our environment. I am 
confident American industry will continue this record of 
innovation and job creation as new environmental standards like 
the Clean Power Plan are adopted.
    The bottom line is that the costs and risks of inaction are 
too high for us to continue to drag our feet or put our heads 
in the sand. I'm looking forward to today's discussion and 
hearing more about how we achieve the carbon targets in the 
Clean Power Plan.
    I thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                  Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman, and thank you to our witnesses for being 
here this morning.
    EPA's Clean Power Plan, like the rest of President Obama's Climate 
Action Plan, is the bold step forward our nation needs to address the 
impacts of climate change. Severe drought, record temperatures, and an 
increase in heavy rain events are just a few examples of what Americans 
are confronting now and can expect to see more frequently in the coming 
years.
    The scientific evidence confirms that we need to act now to lessen 
these impacts. Leaders in the faith community have also been calling on 
us to address climate change. The recently issued encyclical by Pope 
Francis notes that climate change ``represents one of the principal 
challenges facing humanity'' and that the poor will be 
disproportionately affected by its impacts. Pope Francis also states 
that ``there is an urgent need to develop policies so that, in the next 
few years, the emission of carbon dioxide and other highly polluting 
gases can be drastically reduced.''
    I hope that we, in Congress, will stop obstructing EPA's efforts 
and instead listen to our scientists, to our religious leaders, and the 
American people by supporting policies that will cut carbon pollution.
    To that end, power plants are the largest source of carbon 
pollution, and cutting emissions from this sector will be the key to 
any solution. That is why I support the Clean Power Plan.
    It sets reasonable limits that take into account the 
characteristics of each state. It is based on strategies already in use 
such as improving energy efficiency and encouraging the deployment of 
renewables. And finally, it provides the states with flexibility. EPA 
is not prescribing a specific set of measures. States will choose what 
goes into their plans, and they can work alone or as part of a multi-
state effort to achieve meaningful reductions.
    Today we will be discussing the Energy Information Administration's 
analysis of the Clean Power Plan, and I suspect that some Members and 
witnesses will be making the same old argument that EPA regulations are 
killing the economy and jobs.
    We know that this just isn't true, and it isn't what EIA's analysis 
shows. Rather, as history has shown us time and again, stricter 
pollution limits have invariably led to innovation and the creation of 
new technologies that end up creating jobs while protecting our 
environment. I am confident American industry will continue this record 
of innovation and job creation as new environmental standards like the 
Clean Power Plan are adopted.
    The bottom line is that the costs and risks of inaction are too 
high for us to continue to drag our feet or put our heads in the sand. 
I'm looking forward to today's discussion and hearing more about how we 
achieve the carbon targets in the Clean Power Plan.
    Thank you and I yield back the balance of my time.

    Chairman Bridenstine. Thank you, Ms. Johnson.
    Now I'll introduce our witnesses, and then after 
introducing all of you, we'll just go to your testimonies.
    Our first witness today is Dr. Howard Gruenspecht, Deputy 
Administrator of the U.S. Energy Information Administration. 
Before joining EIA, Dr. Gruenspecht served as Director of 
Economic Electricity and Natural Gas Analysis in the Department 
of Energy's Office of Policy. Dr. Gruenspecht received his 
bachelor's degree from McGill University and his Ph.D. in 
economics from Yale University.
    Our second witness is Mr. Stephen Eule, Vice President for 
Climate and Technology at the U.S. Chamber of Commerce's 
Institute for 21st Century Energy. Prior to joining the 
Chamber, Mr. Eule was the Director of the Office of Climate 
Change Policy and Technology at the Department of Energy. In 
addition, he has served as a Subcommittee Staff Director here 
at the Science Committee. Welcome back. Dr. Eule received his 
bachelor's degree in biology from Southern Connecticut State 
College and his master's degree in geography from George 
Washington University.
    Our third witness today is Dr. Susan Tierney, Senior 
Advisor for Analysis Group, Inc. Under the Clinton 
Administration, Dr. Tierney served as the Assistant Secretary 
for Policy at the DOE. Dr. Tierney received her bachelor's 
degree in art history from Scripps College and her master's 
degree and Ph.D. in regional planning and public policy from 
Cornell University.
    Our final witness is Dr. Kevin Dayaratna, Senior 
Statistician and Research Programmer for The Heritage 
Foundation's Center for Data Analysis. At CDA, Dr. Dayaratna 
instituted the Heritage Energy Model to quantify and help 
policymakers understand the long-term economic effects of 
energy policy proposals. Dr. Dayaratna received his bachelor's 
degree in applied mathematics from the University of California 
at Berkeley and his master's degree in business and his 
master's degree and Ph.D. in mathematical statistics from the 
University of Maryland.
    In order to allow time for discussion, please, I would ask 
that you limit your testimony to five minutes, and your entire 
written statement will be made a part of the record.
    I now recognize Dr. Gruenspecht for five minutes to present 
his testimony.

              TESTIMONY OF DR. HOWARD GRUENSPECHT,

                     DEPUTY ADMINISTRATOR,

          U.S. ENERGY INFORMATION ADMINISTRATION (EIA)

    Dr. Gruenspecht. Chairmen Bridenstine and Weber, Ranking 
Members Bonamici and Grayson, full Committee Ranking Member 
Johnson, Members of the Subcommittees, I appreciate the 
opportunity to appear before you today to provide testimony on 
the Energy Information Administration's analysis requested by 
Chairman Smith of the proposed Clean Power Plan rule issued by 
the Environmental Protection Agency in June of 2014.
    By law, EIA'S data, analyses and forecasts are independent 
of approval by any other federal officer or employee. 
Therefore, our views should not be construed as representing 
those of the Department of Energy or other federal agencies.
    So EIA's analysis considers the proposed Clean Power Plan 
rule starting from several baseline cases with varying 
assumptions regarding economic growth, electricity demand, and 
fuel prices. It also includes several policy sensitivity cases. 
Consistent with EIA's statutory mission and expertise, our 
report focuses on implications for the energy system and the 
economy and does not consider any potential health or 
environmental benefits. It is not a cost-benefit analysis. EIA 
also recognizes that there's considerable uncertainty and many 
challenges involved in projecting the impacts of the proposed 
Clean Power Plan. So the final rule may differ from the 
proposed rule in material ways.
    The proposed rule applies to individual states. However, 
the electricity system doesn't respect state boundaries. EIA's 
modeling generally uses 22 regions in our framework as 
compliance regions for the analysis. Actual compliance 
mechanisms will be defied by state compliance proposals and may 
have different characteristics than what we've done.
    The long-term projections system used for this analysis 
does not contain a power flow model or assess the reliability 
of bulk power transmission systems in detail. And lastly, 
because of the shift away from coal towards intermittent 
renewables and natural gas generation in our analysis, natural 
gas-fired capacity will increase in importance for providing 
grid reliability. The analysis does not consider how 
deliverability of natural gas to power plants might be impacted 
by extreme cold conditions in regions where natural gas is used 
for heating during the winter months.
    So let me now turn briefly to some key results. So the 
proposed Clean Power Plan would reduce projected power sector 
carbon dioxide emissions. Reductions range from 484 to 625 
million metric tons relative to baseline. That's a reduction of 
about between 29 and 36 percent relative to the 2005 emission 
level of the power sector.
    Switching from coal-fired generation to natural gas-fired 
generation is the predominant compliance strategy as 
implementation begins but renewables play a growing role in the 
mid-2020s and beyond. That's shown in figures 1 and 2 of the 
testimony.
    The Clean Power Plan has a significant effect on projected 
retirements and additions of electric generation capacity, 
shown in figures 3 and 4. Projected coal plant retirements over 
the 2014-40 period, which were 40 gigawatts in the reference 
case, and that's mostly before 2017, increase to 90 gigawatts, 
nearly all by 2020 in the base policy case.
    Turning to additions, projected renewable capacity 
additions increase in all cases with the proposed rule. Under 
favorable natural gas supply conditions, the proposed rule also 
increases additions of natural gas capacity. Nuclear capacity 
is also added in the sensitivity case where new nuclear 
receives the same treatment as new renewables in compliance 
calculations. So coal production is significantly reduced by 
Clean Power Plan implementation as shown in figure 5.
    Retail electricity prices and expenditures rise under the 
Clean Power Plan, as shown in figure 8. The price increases 
mostly occur in the early 2020s with national average prices 
averaging three to seven percent higher from 2020 to 2025 in 
the Clean Power Plan cases versus respective baseline cases.
    Electricity bills, which reflect both the electricity price 
and the amount of electricity purchased, also rise with Clean 
Power Plan implementation but those increases are smaller in 
percentage terms than the price changes as a combination of 
energy efficiency programs pursued for compliance purposes and 
higher electricity prices tend to reduce electricity use. 
Economic activity indictors including gross domestic product, 
industrial shipments and consumption are reduced relative to 
baseline under the Clean Power Plan. Across the cases that 
start from the reference case, the reduction in cumulative 
GDP--that's over all the years, 25 years--ranges from .17 
percent to .25 percent with the higher end reflecting a tighter 
policy beyond 2030.
    So let me conclude, while EIA does not take policy 
positions, its data analysis and projections are meant to 
assist policymakers in their deliberations.
    Mr. Chairman and distinguished Members of the 
Subcommittees, this concludes my testimony, and I'd be happy to 
answer any questions you might have.
    [The prepared statement of Dr. Gruenspecht follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Bridenstine. Thank you, Dr. Gruenspecht.
    Mr. Eule, you are recognized for five minutes.

                 TESTIMONY OF MR. STEPHEN EULE,

           VICE PRESIDENT FOR CLIMATE AND TECHNOLOGY,

                    U.S. CHAMBER OF COMMERCE

    Mr. Eule. Thank you, Chairmen Bridenstine and Weber, 
Ranking Members Johnson, Bonamici and Grayson, and Members of 
the Subcommittees, as the 17th French mathematician Blaise 
Pascal famously observed, ``The justest man in the world is not 
allowed to be a judge in his own cause.''
    Chairman Smith is to be commended, therefore, for 
requesting EIA to take an independent look at the impacts of 
EPA's Clean Power Plan.
    The study just issued by EIA is the most recent 
contribution to a growing list of analyses that tell a very 
different story from the one EPA has been telling. The details 
are in my written testimony, but in short, using the 
Administration's own numbers and methods, EIA's analysis shows 
that over the 2020-2030 compliance period, the Clean Power Plan 
will, one, cost the economy well more than $1 trillion in lost 
wealth, an amount that exceeds the Administration's own 
estimated social cost of carbon benefits; two, cause consumers 
and businesses to spend hundreds of billions of dollars more 
for electricity; and three, jeopardize reliability of the 
Nation's electricity system, all for no discernible 
environmental benefit.
    While the United States is supposed to be cutting its 
emissions, China, India, and other large economies will 
continue to burn fossil fuels with abandon. With well over a 
billion people still lacking access to electricity, who can 
blame them?
    As much as EPA might like to think otherwise, its new rule 
won't change this reality but it could put U.S. industry at a 
severe competitive disadvantage. Even green Europe is learning 
that sky-high energy prices, largely policy-driven, are ruining 
its competitiveness and turning energy-intensive industries 
into endangered species. Now EPA wants to do the same thing 
here.
    Let's start with the economy. After nearly 400 pages of 
analysis, EPA's economic analysis amounts to this: compliance 
costs of the Clean Power Plan will be less than $10 billion a 
year. End of story. What EPA fails to address is the rule's 
impacts on the broader economy. This is really an inexcusable 
oversight. EIA's analysis provides needed contact. It estimates 
that the cumulative economic costs to achieve the emissions 
cuts proposed by EPA will reach $1.2 trillion, or about $110 
billion each year. That works out to a cost of about $200 for 
each ton of CO<INF>2</INF> reduced, an astonishing amount when 
you consider that today you can buy a ton of CO<INF>2</INF> in 
Europe's carbon market for about 8 bucks. The Administration 
argues that the environmental value of these emission cuts 
would turn such economic losses into gains. Does it? EIA's 
analysis shows the answer is a resounding no. Even when taking 
into account the alleged social costs of carbon benefits the 
U.S. would receive, the net drag on the economy over the 
compliance period slips hardly at all from $1.23 trillion to 
$1.16 trillion. In short, the Clean Power Plan fails and fails 
badly. The Administration's own test is a climate policy.
    EPA also boasts that while the price consumers pay for 
electricity may increase under its plan, by 2030, the 
electricity bills would be about eight percent lower than 
otherwise. EIA's analysis does not support this claim, finding 
instead that large rate increases will leave consumers with 
bigger electricity bills. As a result of these rate hikes, 
consumers will pay an additional $140 billion more for 
electricity over the compliance period. With no environmental 
benefits to speak of, the Clean Power Plan would place entirely 
needles economic burden on businesses and families, especially 
low-income families struggling in the sluggish economy.
    One area where EPA and EIA agree is that in just five 
years, the Clean Power Plan will wipe out about 30 percent of 
the Nation's current coal-fired generation fleet. Such a 
draconian shutdown of existing generating capacity is 
unprecedented and raises serious concerns about the ability of 
the electric power system to handle such a rapid loss of 
baseload generation. The North American Electric Reliability 
Corporation recently concluded that replacing this lost 
capacity would present a significant reliability challenge. And 
as Federal Energy Regulatory Commission Member Phillip Moeller 
recently pointed out, grid reliability should not be left to an 
agency, EPA, with limited expertise on the subject. Thirty-two 
states echo these sentiments in their comments to EPA. In light 
of all this, EPA's continued refusal to look more closely into 
grid reliability is extremely troubling.
    In conclusion, no matter how one slices and dices the data, 
EIA's analysis leaves little room for doubt that EPA's Clean 
Power Plan is fatally flawed as a climate policy and as an 
energy policy, even on the Administration's own terms. Maybe 
the idea of hijacking well-established state authority, turning 
the entire U.S. electricity system on its head, jeopardizing 
the reliability of the grid, raising energy costs on struggling 
families, and causing a trillion-dollar loss in wealth is 
appealing to EPA. For the rest of the country, it's a decidedly 
bad deal.
    Thank you.
    [The prepared statement of Mr. Eule follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Bridenstine. Thank you, Mr. Eule.
    Dr. Tierney, you're recognized for five minutes.

                TESTIMONY OF DR. SUSAN TIERNEY,

              SENIOR ADVISOR, ANALYSIS GROUP, INC.

    Dr. Tierney. Good morning, Chairmen Bridenstine and Weber, 
Ranking Members Johnson and Bonamici, it's great to be here 
today, and thank you very much, Members of the Subcommittee.
    I want to talk for a minute about the EIA's model and give 
you several points about the context in which policymakers can 
take its results into consideration.
    First, as you know, the EIA's model is not a comprehensive 
macroeconomic model of the economy; it is an energy model. It 
does not incorporate the costs associated with public health. 
It does not incorporate the costs associated with addressing 
climate change for many--for all of the communities around the 
country. It does not address impacts on human health. 
Therefore, it can't be viewed as an assessment of the Clean 
Power Plan's impacts on the economy.
    Second, EIA's longstanding practice is to look at 
environmental laws only that are in final form. As a result of 
that, there are many aspects of the changing outlook for the 
economy which are not reflected in this, including the EIA's 
overstating in its base case the emissions from coal plants and 
understating the power generation contributions from natural 
gas, nuclear and renewable energy. Therefore, in some ways the 
EIA's Clean Power Plan policy assessment could be considered 
the baseline as the Nation moves to address greenhouse gas 
emissions from the power sector.
    Third, like many long-term assessments, EIA's method does 
not do a particularly good job of addressing innovation and 
disruptive technologies. Based on historical experience, we 
know that before the fact estimates of environmental compliance 
programs have consistently under--overestimated the cost 
associated with such compliance. Once environmental regulations 
are in place, the ingenuity of the American economy kicks into 
gear and delivers those results much more economically than 
anticipated.
    Additionally, we know that disruptive technologies occur. 
In the Chairman's State of Oklahoma, we know that EIA did not 
anticipate the effect of fracking and its lowering of costs of 
natural gas, so we know that EIA's outlook understandably does 
not anticipate disruptive technology changes. Those always 
introduce changes into the cost of energy, and we can expect 
them here associated with such things as renewables, storage, 
and smart grid technology.
    EIA's assumptions about energy efficiency understate its 
value in mitigating cost impacts of the Clean Power Plan. In 
practice, we have seen that in the ten-state region of the 
Northeast that adopted the Regional Greenhouse Gas Initiative, 
energy efficiency was a core strategy that enabled customer 
bills to go down as a result of adopting a carbon-control 
program in that area. I'm happy to talk more about how that 
occurred.
    Just several other points. The EPA's proposed regulation 
will allow flexibility that states will use to address impacts 
on consumers. It is entirely reasonable to expect that EIA's 
final rule will be more flexible and lower the cost compared to 
what the proposal has been.
    As a former state utility regulator, I know that states are 
very well equipped to address the cost impacts and to use a 
variety of tools to encourage utilities to minimize costs and 
to protect low-income consumers. That's part of their core job 
and they do it well.
    Third, market-based mechanisms including multistate map-
based approaches are ones that we can count on for reducing the 
cost of compliance. States are looking at how to adopt such 
approaches. They work seamlessly with the electric industry's 
structure. They can be adopted without the reliability changes 
that many have anticipated.
    Let me just mention that last point. People have identified 
reliability as a problem. I have just written three different 
reports on different parts of the country analyzing the 
implications of the Clean Power Plan for reliability. Clearly, 
this industry is equipped, well equipped to use its normal 
tools, its day-to-day tools to assure that the lights will not 
go out as a result of this. Many of the reliability concerns 
that some observe are based on worst-case scenarios and assume 
that no one will take action to address issues before problems 
occur, and there is absolutely no historical basis for that.
    Thank you very much.
    [The prepared statement of Dr. Tierney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Bridenstine. Thank you, Dr. Tierney.
    Dr. Dayaratna, you are recognized for five minutes.

               TESTIMONY OF DR. KEVIN DAYARATNA,

          SENIOR STATISTICIAN AND RESEARCH PROGRAMMER,

                    THE HERITAGE FOUNDATION

    Dr. Dayaratna. Chairman Bridenstine, Ranking Member 
Bonamici, Chairman Weber, Ranking Member Johnson, and Members 
of the Subcommittee, thank you for the opportunity to discuss 
the Clean Power Plan.
    My name is Kevin Dayaratna. I'm the Senior Statistician and 
Research Programmer at The Heritage Foundation here in 
Washington, DC. The views I express in this testimony are my 
own and should not be construed as representing any official 
position of The Heritage Foundation.
    For years, it has been a primary goal of the Obama 
Administration to fundamentally expand regulations across the 
energy sector of the economy. The Administration's primary 
justification for doing so is to limit carbon dioxide emissions 
as they believe that such emissions contribute to global 
warming.
    There is broad economic consensus that any governmental 
policies to limit carbon dioxide emissions will have 
detrimental impacts throughout the economy. These negative 
impacts have not only been discussed by myself and colleagues 
at The Heritage Foundation but also notably by other experts in 
Washington, D.C., on both sides of the aisle.
    As you know, the EIA's analysis of the Clean Power Plan is 
based on their use of the National Energy Modeling System. 
Likewise, over the course of my work at The Heritage 
Foundation, I've used the very same National Energy Modeling 
System to rigorously conduct a variety of simulations looking 
at similar policy proposals. Unfortunately, their policies will 
almost surely do far more harm than good by killing jobs, 
stifling the American economy, while having only negligible 
environmental benefits.
    Let's take a closer look at these negative impacts. First, 
the plan kills jobs. Now, just using the results that the EIA 
has published, one can see the significant disruption that a 
Clean Power Plan will have on American jobs. According to their 
very own study, the economy would begin to lose jobs shortly 
after the plan's implementation and over the course of the 
following decade. The results also admit that by 2025, the plan 
will kill nearly 150,000 manufacturing jobs as well as nearly 
200,000 jobs nationwide including in many of your own 
districts. I've conducted similar simulations of other policy 
proposals and have found that in many cases, all districts 
suffer, especially the Midwest.
    Second, the plan stifles the American economy, hitting 
ordinary households quite hard. Because of the plan's 
regulations limiting the use of the least expensive and most 
efficient forms of energy, the mix of energy sources used would 
change dramatically toward more expensive and less efficient 
forms. As a result, the plan would increase annual electricity 
expenditures by up to $70 per household and perhaps by even 
more in coal-dependent areas of the country.
    In terms of GDP, if you take the report's own computations 
and calculate the average income for a typical family of four, 
you notice a significant impact. By the middle of the next 
decade, the Clean Power Plan would cost a family of four nearly 
$2,000 in a single year, which is close to a full semester's 
worth of tuition at a local junior college.
    Third, the plan has only negligible environmental benefits. 
The whole goal of this plan is to reduce carbon dioxide 
emissions. What's interesting, however, is that by using the 
EPA model for the assessment of greenhouse gas-induced climate 
change and making the unjustifiably optimistic assumption of 
eliminating all carbon dioxide emissions from the United States 
completely, the result will be a reduction of around .2 degrees 
Celsius in global temperatures. As a result, even if the plan 
to actually meet the Administration's goals for CO<INF>2</INF> 
reduction, the impacts on global temperatures would be 
undeniably negligible. So all together, the negative impacts of 
the Clean Power Plan are significant, and the impact on the 
climate is trivial.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Dayaratna follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Bridenstine. I'd like to thank all the witnesses 
for their testimony. Members are reminded that Committee rules 
limit questioning to five minutes. The Chair recognizes himself 
for five minutes.
    Dr. Gruenspecht, you talked about the retirement of coal-
fired electric generation units. When you talk about the 
retirement, is that different than just shutting them down?
    Dr. Gruenspecht. I think those are synonyms in this 
context.
    Chairman Bridenstine. So we could claim that this does shut 
down coal-fired power plants, which of course is happening in 
my State of Oklahoma.
    Dr. Gruenspecht. Well, yes, and it's happening--I mean, 
again, we had some retirements of coal-fired power plants 
already----
    Chairman Bridenstine. Right.
    Dr. Gruenspecht. --in part because of the mercury and air 
toxics standard, in part because, you know, simple aging in 
some cases and unwillingness to make the investments required 
to allow those plants to go forward, competing them against--
economically against other technologies.
    Chairman Bridenstine. Got it. Your analysis found that 
under the base case scenario, 40 gigawatts of coal-fired 
electric generation capacity would retire mostly before 2017. 
Are the 40 gigawatts of retirements in the reference case a 
result of EPA regulations that are currently in the 
implementation stage, the 40 gigawatts, are they----
    Dr. Gruenspecht. I think it's fair to say that the mercury 
and air toxic standards which, you know, would--the operators 
of these plants have to make decisions, do I want to invest in 
the technologies required by that standard, and they look 
forward and decide whether that's a worthwhile investment. In 
some cases, it is; in some cases, it's not. In the cases where 
it's not, they decide to close that plant.
    Chairman Bridenstine. So that is--so the answer would be 
yes, it is based on the current implementation of----
    Dr. Gruenspecht. Well, and it also reflects the market 
situation, that natural gas prices have an effect on this as 
well. It's not the--EPA doesn't get natural gas prices.
    Chairman Bridenstine. How many additional gigawatts of 
retirements did EIA project as a result of the Clean Power 
Plan? How much additional on top of the 40 gigawatts?
    Dr. Gruenspecht. Well, it varies across the different cases 
that we carried out but I think maybe 50 to 60 gigawatts 
additional.
    Chairman Bridenstine. So we're talking about 90 gigawatts 
being taken, basically being shut down, and based on the 
implementation of current regulation and then this new rule?
    Dr. Gruenspecht. And the market.
    Chairman Bridenstine. Okay. When did your projections 
indicate that most of these additional retirements would occur 
as a result of the Clean Power Plan? When would they occur?
    Dr. Gruenspecht. Well, the proposed Clean Power Plan rule 
takes effect in 2020, so most of these occur in that time 
frame.
    Chairman Bridenstine. EIA also analyzed the potential for 
the Clean Power Plan to affect the heat rate or efficiency of 
coal-fired power plants. Is that correct?
    Dr. Gruenspecht. Yes.
    Chairman Bridenstine. And EIA's analysis found that under 
the Clean Power Plan, that coal-fired power plants would be 
able to improve heat rates by approximately 1.9 percent. Is 
that correct?
    Dr. Gruenspecht. I think that's on average what they 
actually achieved so, again, there are technologies available 
to improve heat rates. They cost something. Those are 
considered in the context of other options to comply, and we 
did find that improvement in heat rates.
    Chairman Bridenstine. Are you aware that the EPA believes 
that coal-fired power plants can improve efficiency by as much 
as six percent?
    Dr. Gruenspecht. Right. So we--you know, in our analysis, 
we did not try to reconstruct their building blocks. I mean, as 
far as we're concerned, we thought our assignment and I think 
proper assignment for EIA is to take the standards as given and 
so EPA had a methodology for coming up with the standards for 
each state that might have included that assumption, but at 
some point the states, as I understand it, take the standards 
as given and then there's a ``how do we meet it.'' So we looked 
at the ``how do we meet it.'' We didn't second-guess the 
building blocks.
    Chairman Bridenstine. So the six percent, you didn't 
assume--you're saying 1.9 percent is probably more accurate 
than the six percent that the EPA claims? My question is, if 
you could save six percent, why would they not already be doing 
it? Because they could actually be more efficient, right?
    Dr. Gruenspecht. Well, that's the classic economist 
question of a $20 bill on the floor, why didn't somebody pick 
it up, it can't be on the floor. But no in our analysis, we get 
something between one and two percent, and some of that is just 
the change in the heat rate. Some of that has to do with 
actually investing in these technologies. I think about a third 
of the plants that remain invest in these technologies. Some of 
it just reflects the fact that some of the plants that retire 
or shut down, depending on your choice of words, you know, 
maybe the less efficient ones tend to be the ones that shut 
down. So there is some actual investment in heat rate 
improvement but some of it is just a changing mix.
    Chairman Bridenstine. Okay. I'm out of time. I thank you, 
and I'd like to recognize the Ranking Member, Ms. Bonamici, for 
five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses.
    Dr. Tierney, I especially appreciate how you pointed out 
that the EIA analysis doesn't fully reflect innovation and 
disruptive technologies. I think back a couple years ago, 
Oregon had a feed--in tariff pilot program that sold out in 
1five minutes, and there is so much potential out there with 
new innovations to reduce costs and make a big difference, so 
thank you for pointing that out.
    I wanted to also focus on the fact that it's clear that the 
EIA analysis does not consider potential health or 
environmental benefits from reducing CO<INF>2</INF> emissions. 
Dr. Gruenspecht actually said that in his testimony. But beyond 
the economic costs associated with changing climate, there are 
very serious public health risks related to increases in global 
temperature--longer heatwaves, what just happened in India--
changes in water and air quality, foodborne and insect borne 
disease, in my state, the risks of fire. Climate change also 
has the potential to exacerbate existing health conditions such 
as asthma and adversely affect vulnerable populations like 
children and the elderly.
    So this cost to public health is unavoidable if we do 
nothing to address the present threat of climate change, so can 
you please talk a little bit more about what is the effect of 
improving human health and lowering healthcare costs on the 
U.S. economy? How does that affect the economy? And might there 
be some other costs that are borne by the public if we do not 
implement the Clean Power Plan?
    Dr. Tierney. Thank you very much for the question. Clearly, 
the kinds of health benefits that you just described, avoiding 
asthma, avoiding respiratory illnesses, especially in 
vulnerable populations like the poor is particularly important. 
That shows up in the economy in lower healthcare costs around 
the country. That has economic effects that are quite direct in 
consumers' pockets but also in local economies that don't have 
to have the burden of higher healthcare costs. Importantly, 
additionally, the fact that communities will not have to incur 
the burden of so many costs associated with addressing the 
impacts of a changing climate. You described drought, fire, 
extreme weather events. I didn't love the 112 inches in Boston 
of snow that we had. It had a cost on people's roofs that we 
avoid--that we can avoid by avoiding some of the effects of 
climate change.
    Ms. Bonamici. Thank you. And--thank you very much.
    Dr. Gruenspecht and Dr. Tierney, Dr. Gruenspecht, you 
stated in your testimony that EIA's analysis does not consider 
the potential health or environmental benefits from reducing 
carbon pollution under the proposed rule. It's not a cost-
benefit analysis. So can you confirm that that's correct?
    Dr. Gruenspecht. Yes.
    Ms. Bonamici. So is it fair to say that the NEMS model that 
the EIA uses for its annual energy outlook and for its analysis 
of the Clean Power Plan is not a comprehensive model of the 
U.S. economy?
    Dr. Gruenspecht. Well, there is a pretty comprehensive 
macro model in NEMS but it's an energy economy model and it 
definitely doesn't address benefits I think it is fair to say.
    Ms. Bonamici. Thank you.
    And Dr. Tierney, if the EIA's analysis does not include the 
health benefits, how should we interpret the GDP impacts that 
are presented by the EIA report?
    Dr. Tierney. I would caution anyone from taking those home 
to the bank. They are one side of the ledger, and there are a 
number of co-benefits that will occur to the economy that are 
not reflected in the EIA's results.
    Ms. Bonamici. And Dr. Tierney, you know, critics of this 
rule and many other EPA rules claim that the economy and the 
American consumers will suffer as a result of the agency's 
efforts to make our environment cleaner. Now, this is 
contradicted by the fact that the U.S. economy has tripled in 
size since the adoption of the Clean Air Act. One of the 
concerns often raised by opponents is that the Clean Power Plan 
will cause electricity prices to increase dramatically, but you 
state in your testimony that the impacts on electricity rates 
will be modest in the near term and can be accompanied by long-
term benefits in the form of electricity bills. Can you please 
describe how the likely impact that the proposed rule will 
have? How will it affect electricity rates and bills?
    Dr. Tierney. Well, let me use an example to explain the 
kinds of impacts that we have actually observed in states that 
have adopted carbon control programs for the power sector. If 
you look at the states of the mid-Atlantic and northeast 
region, that for now six years have had a cap on the amount of 
emissions that come from power plants, if you look at where the 
money flows after power plant owners buy an emissions allowance 
and that money flows into the hands of state governments, those 
state governments then have turned those around and invested in 
energy efficiency programs, allowing customers to reduce their 
overall energy use and have lower customer bills over time.
    We analyzed extremely carefully the flow of dollars around 
the economy in those ten states for the first three years of 
the program. We found there were $1.6 billion to the good for 
those economies. Consumers got lower customer bills in the form 
of $1.3 billion, reflecting those programs during the first few 
years.
    Ms. Bonamici. Terrific. Thank you very much. My time is 
expired.
    Thank you, Mr. Chairman.
    Chairman Bridenstine. Thank you.
    I'd like to recognize Chairman Weber from Texas, Boomer 
Sooner.
    Mr. Weber. Thank you to the gentleman from the north Texas 
suburb of Oklahoma.
    Dr. Tierney, you said in your testimony that some of the 
analyses did not take--and it was an interesting term. You said 
disruptive innovations.
    Dr. Tierney. Like hydraulic fracturing.
    Mr. Weber. That is in fact what you said, and that's where 
I'm going. Thank you for saying that. She's ahead of me, folks. 
That's fracking weird.
    At any rate, was that fracking technology described as 
disrupting the environment by some when that happened, when it 
became prevalent?
    Dr. Tierney. I'm sorry. I don't understand your question. I 
was talking about disruptive technologies from an economic 
point of view.
    Mr. Weber. A lot of people said that fracking was also bad 
for the environment. Would you--a lot of people said that it 
was bad for the environment and was going to affect the water 
supply and so on and so forth.
    Dr. Tierney. There's a wide debate. Having been a member of 
the Secretary of Energy's Advisory Committee on shale gas 
issues, I know that there are a wide variety of indicators----
    Mr. Weber. I'm just----
    Dr. Tierney. --of air pollution.
    Mr. Weber. I know, but you recognize that that discourse 
did take place?
    Dr. Tierney. Of course.
    Mr. Weber. Absolutely. So it's interesting to me that you 
call innovations disruptive.
    Dr. Tierney. All economists would call technologies that 
are game-changing----
    Mr. Weber. I got it.
    Dr. Tierney. --disruptive technologies.
    Mr. Weber. I've got you, and I've got a specific question. 
I'm going to get there.
    So the EIA study did not take into account disruptive 
innovations. Did it take into account the possibility of 
disruptive regulations?
    Dr. Tierney. I don't understand the phrase, ``disruptive 
regulations.''
    Mr. Weber. You understand the phrase ``disruptive 
innovations,'' though?
    Dr. Tierney. Sure. They are game-changing technologies----
    Mr. Weber. Right.
    Dr. Tierney. --that reduce the cost associated with some 
activity.
    Mr. Weber. So you might agree that there are also 
regulations that are game-changing as well?
    Dr. Tierney. Yes, and in fact, that may occur but this is a 
relatively modest effect.
    Mr. Weber. Would you call those disruptive as well?
    Dr. Tierney. I would not call it disruptive.
    Mr. Weber. You wouldn't? That's interesting bias, in my 
opinion. Let me move on.
    Dr. Gruenspecht, the EIA analyzed the impact the Clean 
Power Plan would have on electricity prices across the country. 
Now, I'm from Texas. The gentleman from Oklahoma has already 
lauded that. What impact would the Clean Power Plan have on 
electricity prices in my home State of Texas under the EIA's 
analysis?
    Dr. Gruenspecht. Well, our model is not a state-by-state 
model but Texas being a big place and having its own region in 
our model you could look at Texas. So in the base in 2020, the 
modeling results are 7.3 percent above baseline, in 2030, about 
.7 percent above baseline.
    Mr. Weber. It's going to cost our consumers money.
    Dr. Gruenspecht. There are positive impacts in Texas, yes, 
positive price impacts.
    Mr. Weber. I got you. So Texas has been a great model for 
success. We've created more jobs in the last 10 or 12 years 
than all the other 49 lesser states, and so we don't 
necessarily want to impact that in a negative way. Let me move 
on.
    The EPA's regulatory impact analysis claims that while the 
price of electricity will rise--you just said electricity costs 
for consumers will decrease due to lower demand because of 
``enhanced demand-side energy management,'' what I might call 
disruptive regulations. EPA backs up this statement by assuming 
states can meet a target of 1.5 percent annual improvement in 
energy efficiency, which would theoretically lead to a decline 
in demand for electricity over time. But the EIA's report 
projects a more modest role for demand-side energy efficiency 
with the increase in electricity prices from the Clean Power 
Plan far outweighing, using the percentages you just gave for 
Texas, far outweighing any decrease in demand. Remember, a 
decrease of 1.5 percent but you just said seven percent higher 
prices. Given the analysis of your report, doesn't this 
directly contradict the EPA's claim that the prices will be 
higher but Americans' electricity bills will be lower?
    Dr. Gruenspecht. I think on average, but again, you know, 
like they say in the television commercials, your results may 
differ than the average, but on average, we show higher 
electricity bills even--but not as much as the increase in 
electricity prices. Again, it kind of goes back to an earlier 
question. We tried to build in efficiency and have it compete 
with other options, and we found that we got a lot of renewable 
generation that was sort of a cheaper compliance approach than 
some of the investments in efficiency. There are disputes about 
the costs of efficiency----
    Mr. Weber. Okay. I'm running out of time. The answer is 
yes, it does dispute the prices.
    Mr. Eule, would you agree with that?
    Mr. Eule. Yes, I would. My analysis shows that people will 
be spending $140 billion more over the compliance period.
    Mr. Weber. Got you. And how about you, Dr. Dayaratna? 
You're agreeing with it too? Turn your mic on, please.
    Dr. Dayaratna. That the cost of electricity will rise, 
correct?
    Mr. Weber. Right.
    Dr. Dayaratna. Correct.
    Mr. Weber. And it disputes the EPA's findings that the 
price will go up but the demand for electricity will actually 
be lower.
    Dr. Dayaratna. I'm not familiar with what the EPA----
    Mr. Weber. I got you. Well, I'm out of time. Thank you for 
your input. I appreciate that.
    Chairman Bridenstine. The gentleman yields back.
    The Ranking Member from Florida is recognized for five 
minutes.
    Mr. Grayson. Thank you.
    Dr. Tierney, earlier this week EPA released a report titled 
``Climate Change in the United States: Benefits of Global 
Action.'' The report describes some of the benefits that we'll 
see within the century if we take action to reduce emissions, 
for instance, approximately $3 billion in avoided damages from 
poor water quality, $11 billion in avoided damages in 
agriculture, and an estimated 12,000 fewer deaths from extreme 
temperatures in the 49 major U.S. cities.
    Dr. Tierney, do you believe it's important to keep these 
long-term economic and public health costs of inaction in mind 
if we continue to promote policies that keep the United States 
at the forefront of addressing the global threat of climate 
change?
    Dr. Tierney. Without a doubt, those are real costs that 
would be avoided if we are taking steps today to control 
emissions of greenhouse gases from the power sector.
    Mr. Grayson. Dr. Gruenspecht, Mr. Eule's testimony states 
that EIA's analysis demonstrates that the economic costs exceed 
the climate benefits from this rule. Are you in a position to 
agree or disagree with that assessment?
    Dr. Gruenspecht. Again, we only looked at the energy and 
economic side, not the benefits side, so our study doesn't 
really speak to that.
    Mr. Grayson. So to be specific about this, did EIA 
calculate the economic benefits associated with the 
implementation of the Clean Power Plan?
    Dr. Gruenspecht. The health benefits?
    Mr. Grayson. No, the--well, let's start with the economic 
benefits and then discuss the health benefits.
    Dr. Gruenspecht. So we looked at the energy system and the 
relationship of the energy system to the economy, and we did 
not look at the benefits in line with our--you know, which is 
our expertise and our mission.
    Mr. Grayson. All right. So what kind of benefits other than 
health, which you mentioned, are not included in that analysis?
    Dr. Gruenspecht. Again, there are no--there's no discussion 
of benefits in the analysis that we did.
    Mr. Grayson. All right. So then you're left disagreeing 
with Mr. Eule's conclusion that somehow the EIA analysis 
demonstrates that the economic costs exceed the climate 
benefits because you didn't weigh one against the other?
    Dr. Gruenspecht. Well, I think Mr. Eule should speak for 
himself but I think he did further work, you know, using a 
social cost of carbon or something. We didn't do any of that. 
So I'm not saying I agree or disagree. We just didn't address 
it.
    Mr. Grayson. Mr. Eule, last month there was an independent 
peer-reviewed scientific paper published in a journal called 
Nature, Climate Change. The lead author was Charles Driscoll. 
Are you familiar with that?
    Mr. Eule. No, I'm not.
    Mr. Grayson. All right. Well, among other things, the 
research concluded that according to the article, the power 
sector policy that's been proposed with the great health 
benefits have the potential to prevent an expected 3,500--3,500 
avoidable deaths in the United States each year and more than 
1,000 heart attacks and hospitalizations each year from 
pollution-related illness. Did your analysis take any of that 
into effect?
    Mr. Eule. Not having seen the study, no.
    Mr. Grayson. Well, with regard to health consequences in 
general, did your analysis consider any of those?
    Mr. Eule. My analysis concerned the climate benefits. EPA 
in its regulatory impact assessment does monetize co-benefits, 
and I anticipated a question like this and I have taken a look 
at the monetized co-benefits that EPA has calculated, and when 
you run the numbers, the costs still exceed the co-benefits.
    Mr. Grayson. Well, we can only deal with what you actually 
report to us. Did your report include any analysis of the 
health benefits I just described, yes or no?
    Mr. Eule. No. As I said----
    Mr. Grayson. Okay. Then the answer is no. Thank you.
    Dr. Dayaratna, what about you? Did your analysis consider 
any of the health benefits that come from controlling pollution 
including quite dramatically the 3,500 annual deaths that would 
be avoided in the United States from this pollution?
    Dr. Dayaratna. Well, like I mentioned, I've run the 
National Energy Modeling system myself over the past few years 
at The Heritage Foundation, and this analysis that I presented 
today was simply based on the EIA's report. I didn't rerun 
their simulations. But let me just say one thing.
    Mr. Grayson. Well, how about answering the question?
    Dr. Dayaratna. Yeah, I will.
    Mr. Grayson. Let's answer it now. I'm running out of time.
    Dr. Dayaratna. Okay.
    Mr. Grayson. Go ahead, answer it.
    Dr. Dayaratna. Okay, I'll answer it.
    Mr. Grayson. Yes or no?
    Dr. Dayaratna. Did I do it?
    Mr. Grayson. Yes, did you do it? I asked you----
    Dr. Dayaratna. My analysis----
    Mr. Grayson. --whether you did it.
    Dr. Dayaratna. My analysis was regarding just looking at 
what the EIA did in their report, the analysis of the report.
    Mr. Grayson. Okay. So then your answer too seemingly very 
reluctantly is no, you did not consider any of the health 
consequences of pollution in the United States?
    Dr. Dayaratna. In this--in my analysis that I discussed 
today, no.
    Mr. Grayson. Thank you. I'll yield back.
    Chairman Bridenstine. Mr. Hultgren from Illinois is 
recognized for five minutes.
    Mr. Hultgren. Thank you, Chairman. Thank you all for being 
here.
    I do--I'm worried about the President's proposed new and 
existing source performance standards for a number of reasons, 
my chief concern being the arrogance of which preordained 
policy solution is shoved down the American people's throat 
after they flatly rejected it at the ballot box.
    I came to Congress after this House rushed through a cap-
and-trade bill, which was thankfully stopped in the Senate. I 
find it cynical for EPA to then try enacting a regulation that 
essentially mandates a technology which this Administration has 
undercut in CCS or requires the implementation of a state-based 
cap-and-trade system, which the Pope even disagrees with.
    My constituents deserve their voice to be heard, and it's 
voter disenfranchisement to ignore them because they don't 
agree.
    Dr. Gruenspecht, what impact do you find this rule to have 
on electricity costs above the baseline?
    Dr. Gruenspecht. Again, over the 2020-2025 period, three to 
seven percent increase in electricity prices.
    Mr. Hultgren. So Dr. Gruenspecht and Mr. Eule and Dr. 
Dayaratna maybe as well, what populations and demographics are 
most affected by increased electricity rates? Dr. Gruenspecht?
    Dr. Dayaratna. Do you want me to go for it? All right. 
Okay.
    Mr. Hultgren. Go ahead.
    Dr. Dayaratna. Populations all across the board, 
demographics and populations all across the country, all across 
the board, especially those in low-income communities, those 
are particularly included, and they will suffer the most, 
especially people on fixed income as I think Chairman Smith was 
alluding to earlier.
    Mr. Hultgren. Help me understand, and I'm sorry I missed 
Chairman's Smith questioning. My understanding is that low-
income communities are going to be hit, some already spending 
more than ten percent of their income on energy certainly carry 
a higher burden for increased energy costs. Would you agree 
with that, and is that what your research has----
    Dr. Dayaratna. Absolutely, and in fact, what the analysis 
illustrates is that average income goes down and their 
electricity prices go up, so things become even more difficult 
for these people than just electricity prices going up.
    Mr. Hultgren. This is another thing that I find so ironic 
about this Administration and this regulation. If the EPA were 
a lender and their housing risk analysis disproportionately 
harmed low-income communities, populations of color and seniors 
on a fixed income, they'd be stuck in disparate impact 
litigation for so long that they'd probably choose to get out 
of that business, but I guess we can't even get the Justice 
Department to go after the most egregious cases involving this 
Administration.
    Mr. Eule and also Dr. Dayaratna, what is the potential 
impact of the Clean Power Plan on grid reliability?
    Mr. Eule. Well, I think any time you have about 30 percent 
of your baseload power sources coming off the grid at once, I 
think that poses a very significant challenge to reliability of 
the grid. This is something that NERC has agreed to, that FERC 
has agreed to. It's an issue that EPA really hasn't done enough 
on, and a number of states, 32 states, as a matter of fact, 
have pointed to reliability issues in their comments to EPA. So 
this is a concern that's all the way across the board, and 
unless we do something, we'll probably see more brownouts and 
blackouts, although EPA might call these unanticipated energy 
conservation events, but we all know that they will be 
blackouts. So I think that this is an issue that EPA needs to 
slow down on and take more time to consider.
    Mr. Hultgren. Dr. Dayaratna, do you have any thoughts on 
how the Clean Power Plan will impact grid reliability?
    Dr. Dayaratna. I actually have not looked at that question 
myself but I'm happy to look into it further.
    Dr. Tierney. Mr. Hultgren, I have examined this very 
carefully, and the Federal Energy Regulatory Commission has 
written all five members, Republicans and Democrats, have 
written to the EPA saying that the tools we have in place today 
are adequate to handle the reliability issues. The grid 
operators who have analyzed the retirement scenarios indicate 
that those will take place over a period of time. It can be 
handled by the grid operators. That's true in the Midwest, 
that's true in your part of the country, that's true for both 
PJM and the Mid-Continent ISO. There is no historical basis----
    Mr. Hultgren. I've got last question----
    Dr. Tierney. --for identifying the reliability issues.
    Mr. Hultgren. If I could reclaim my time, there's clearly a 
disagreement on that issue. Some are questioning the 
reliability there. I certainly am hearing concern from my 
constituents.
    Mr. Eule, if I can wrap up my last 30 seconds, does the EPA 
rule recognize technology and its limitation in both the short 
and longer term?
    Mr. Eule. I'm not sure. Could you repeat the question?
    Mr. Hultgren. Does the EPA rule recognize technology and 
its limitation in both the short and longer term?
    Mr. Eule. I think the EPA makes assumptions about 
technologies and technology deployment that many states find 
unreasonable. That's something we found in our survey of the 
state comments to EPA. Many states have pointed out that the 
technology assumptions that EPA assumes just cannot be met.
    Mr. Hultgren. Thank you. My time is expired. I yield back. 
Thank you, Chairman.
    Chairman Bridenstine. Thank you.
    I'd like to recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair, and thank you to the 
panel. Obviously this Committee, we agree on a lot of things, 
and then there are some places where we are in absolute 
disagreement, and this may be one of those areas, and I do want 
to thank my friend, Mr. Hultgren, for bringing up the Pope 
because the most recent encyclical says let's do everything we 
can to reduce pollution going into the atmosphere to avoid any 
further climate change. So I appreciate him bringing up the 
Pope.
    I would like to address a couple things to you, Dr. 
Dayaratna, and so just I understand, I think I heard in your 
testimony you think that at its peak at some point, there would 
be potentially a loss of 200,000 jobs a year.
    Dr. Dayaratna. By 2023, a total of 200,000 lost jobs.
    Mr. Perlmutter. A total by 2023?
    Dr. Dayaratna. Yes.
    Mr. Perlmutter. So if I am not mistaken, and you're a 
mathematician, statistician, right?
    Dr. Dayaratna. Correct.
    Mr. Perlmutter. Are you familiar with how many jobs we were 
losing at the end of the Bush Administration per month?
    Dr. Dayaratna. Um----
    Mr. Perlmutter. About 800,000. I'll help you on that, okay? 
About 800,000 jobs a month in 2008 and 2009. So total is 
200,000 jobs by 2023. Is that your testimony?
    Dr. Dayaratna. Yes, including probably some in your own 
district actually.
    Mr. Perlmutter. Well, my guess is that there would be some, 
but on the other hand----
    Dr. Dayaratna. Including manufacturing jobs.
    Mr. Perlmutter. On the other hand, we're gaining under the 
Obama Administration at least 200,000 jobs a month, not 200,000 
jobs by 2023 are lost, 200,000 jobs a month, 13 million jobs 
since the Obama Administration took office.
    Now, you had a very interesting statement right at the 
beginning, and I almost thought you were working for the Obama 
Administration because you said it with such authority: ``For 
years it has been a primary goal of the Obama Administration to 
fundamentally expand regulations across the energy sector of 
the economy.'' Is that written down someplace where the Obama 
Administration has said they fundamentally want to expand 
regulations, or is that your opinion?
    Dr. Dayaratna. I haven't----
    Mr. Perlmutter. Is that your opinion, sir?
    Dr. Dayaratna. It is my opinion. Throughout a variety of 
things that I've seen over the past few years, I have noticed 
that this seems to be the primary goal--one of the primary 
goals of this Administration.
    Mr. Perlmutter. So it is your opinion? Yes or no?
    Dr. Dayaratna. I haven't seen it written down anywhere.
    Mr. Perlmutter. Okay. Thank you.
    So you, I understand, have taken a lot----
    Dr. Dayaratna. Let me just say this, though----
    Mr. Perlmutter. No, it's my time.
    Dr. Dayaratna. All right. Go ahead.
    Mr. Perlmutter. You'll get a chance to respond however you 
like later on.
    Dr. Dayaratna. Okay.
    Mr. Perlmutter. So you took information from the Energy 
Information Agency to determine some of your statistics, 
correct?
    Dr. Dayaratna. Correct.
    Mr. Perlmutter. Can I have the EIA's solar projections put 
up there, please? So did you in coming up with your analyses 
that there would be this job loss, did you take into 
consideration the growth factor of solar that the EIA has 
continually underestimated? Did you look at--are you familiar 
with this chart?
    Dr. Dayaratna. I am not familiar with that chart 
specifically but I am familiar with the fact that this--these 
jobs are net jobs overall. So saying that this plan is going to 
create jobs is essentially like saying minus five plus two is a 
positive number.
    Mr. Perlmutter. Minus five plus two, so that would be minus 
three. Is that right?
    Dr. Dayaratna. Yes.
    Mr. Perlmutter. I mean, I'm not a statistician but I'm just 
trying to do the math.
    So--but you did not take that into consideration in doing--
--
    Dr. Dayaratna. Unless the model----
    Mr. Perlmutter. --your analysis?
    Dr. Dayaratna. Unless the model did. I just used the EIA 
results from their annual--yeah.
    Mr. Perlmutter. Can we put up the other one, the levelized 
costs of energy chart? So this is EIA information too comparing 
the costs of different kinds of energy technology, and first 
I'd like to ask, is The Heritage Foundation agnostic when it 
comes to what kind of energy this country has or is it coal-
centric?
    Dr. Dayaratna. I--well, my testimony does not reflect the 
views of The Heritage Foundation so I'm not going to comment on 
anything in that regard.
    Mr. Perlmutter. But when I look at your testimony, it 
starts off with ``The Heritage Foundation.'' You do it on 
Heritage letterhead.
    Dr. Dayaratna. Well, if you actually look at the first 
paragraph, it specifically says that my views do not reflect 
the views of The Heritage Foundation.
    Mr. Perlmutter. But you used their letterhead.
    Dr. Dayaratna. There is letterhead on my testimony, 
correct.
    Mr. Perlmutter. All right. Well, in looking at the chart, 
levelized costs of energy, shows the most bang for the buck is 
energy efficiency. Would you agree with that? I mean, a BTU 
saved is a BTU earned, right in the middle, so the red sort of 
energy efficiency and renewable energy sources is blue, fossil 
fuels.
    Dr. Dayaratna. I'm not sure about the data that's used in 
this chart so I'm not sure I want to comment on it.
    Mr. Perlmutter. All right. So you don't remember this chart 
or this data?
    Dr. Dayaratna. This chart and this data? Off the top of my 
head, no.
    Mr. Perlmutter. Okay. Well, my time is expired. I have many 
other questions if we get to another round. I thank you, sir.
    Chairman Bridenstine. The gentleman from California, Mr. 
Knight, is recognized.
    Mr. Knight. Thank you, Mr. Chair.
    It seems like a lot of folks have used their own states so 
I'm going to use mine in my testimony. Have we used California 
as kind of a model in any of this with the recent legislation 
that they've passed, the recent RPS standards, the AB-32 
passage? Looking at what California has done when we had the 
five dirtiest cities in 2010, and now that we've passed all 
this legislation, we have the six dirtiest cities in 2015, can 
anyone comment on what has happened in California? Have we used 
this as a good model or is it something that we shouldn't use?
    Dr. Gruenspecht. Well, we don't give policy advice of what 
you should do or shouldn't do, but we do incorporate the 
California programs into our energy outlook. That I will say.
    Dr. Tierney. One aspect of the California program that is 
relevant here is that it uses a mass-based approach. It puts a 
cap on the amount of emissions. California's model is actually 
economy-wide. The Clean Power Plan would ask each state to 
adopt its own approach in the power sector. Many states are 
looking at joining together voluntarily to choose an approach 
that would do a multistate mass-based approach. The studies 
have indicated consistently that that type of approach is the 
most efficient way to deliver carbon reduction or air pollution 
benefits, and we've seen that in wide literature on this topic.
    Mr. Knight. And I won't speak countrywide, I'll just use 
California as an example of the things that have happened. Over 
the last five years, we have gone through AB-32 and RPS and we 
have tried to lower the standards. We have continually been the 
highest electric rates in this country, and we have risen by 
the highest percentage over the last five years in electric 
rates. Those are facts of legislation that has been passed in 
California. Those are facts of what has happened in California. 
Again, we've gone from the five dirtiest cities in this country 
to the six dirtiest cities in the country with very, very 
little impact by the legislation that we've passed.
    But I guess my question would be more on some of the power 
that we address in these standards and what we're trying to do, 
and I'll just go straight down the line. Would we agree that 
nuclear power is a clean energy that we could use to lower the 
impacts of carbon in the air and pollution in the air? And I'll 
start right with you, Dr. Gruenspecht.
    Dr. Gruenspecht. Yes. It's just expensive to build new 
plants but definitely clean in terms of carbon.
    Mr. Eule. Yes.
    Dr. Tierney. Yes, and I hope that the EPA presents a rule 
that will allow us to retain safely operating existing nuclear 
reactors.
    Dr. Dayaratna. Correct.
    Mr. Knight. I knew that would be a quick answered question.
    Again, I'll go back to what we have decided in California 
that that is not a clean energy and we are trying to get rid of 
those energy sources, so I'm glad that we would agree that that 
would be a very clean energy, that that would lower the carbon 
standards and our carbon footprint, and we could continue on 
with that.
    And with that, I will yield back the balance of my time.
    Chairman Bridenstine. The gentleman yields back.
    I recognize Mr. Veasey from Texas, Boomer Sooner.
    Mr. Veasey. They weren't saying that at the TCU game last 
year, that's for sure.
    I did have a question that I wanted to ask about 
affordability. Dr. Tierney, you know, one of the things that I 
know that you're aware of is that critics of the proposed rule 
of the EPA claim that American consumers will have to pay more 
because of the changes. One of the specific concerns highlights 
that the Clean Power Plan will cause residential electricity 
prices to increase dramatically, and also it states that 
residents in certain areas of the country will see higher rates 
of increase, and one of those regions is in Texas that I 
represent, and residents in the district that I represent, I 
represent a very urban area in Dallas and Fort Worth, and it 
would be really tough for the constituents that I represent for 
them to see any increases in their utility bills. I'll be very 
frank with you on that. Which is why I was actually encouraged 
to see that you disagreed with the report's conclusion on this 
based on the analysis completed by EIA. Can you please describe 
in more detail the likely impact of the proposed rule and what 
it will have on electricity rates and bills?
    Dr. Tierney. Sure, and I think there are two parts to your 
question that I'd like to address. One of them is, in a place 
like California and in other parts of the country where 
electricity rates may be higher than other parts of the 
country, the consumers' total bills, total electricity bills, 
in those parts of the country are lower than other parts 
because of energy efficiency. The amount of consumption that a 
poor person in a low-income housing building, they're going to 
end up paying less per month on total for electricity as a 
result of this fact that electricity rates may be slightly 
higher but you're going to spend much less on your total bill. 
So we've seen that. We've seen that around the country. We've 
seen that in California. The parts of the country that have 
invested the most in energy efficiency are places where there 
is a much bigger economic gain per dollar spent on energy by 
consumers and by the total economy. So this--the fact that 
people talk about rates just clouds the fact that in fact what 
customers do each month is write a check for their bill.
    And the second part that I want to address is that those 
same consumers that are paying for electricity out of one 
pocket, in a situation where they're going to have lower 
healthcare costs and lower taxes as a result of their 
communities not having to address climate change impacts so 
much, they're going to be paying less out of that other pocket. 
So the customer or the person living in that community is going 
to be positively benefited by the kinds of things that are 
underway here.
    Mr. Veasey. Thank you very much. I'm glad that you talked 
about that. I think that's important, and I think that's left 
out of the discussion too often, and for people that do 
represent, you know, areas like I do, that's a huge concern 
when we have these particular debates.
    Another issue that is very important to the state and the 
district that I represent is the impact that the rule will have 
on jobs. A recently released study found that the CPP would 
result in an increase of 263,000 civilian jobs by 2030, and I 
understand that you helped analyze the economic impact of a 
similar regional rule, the RGGI rule. Can you describe the 
economic impact that RGGI had in its region? And also, can you 
relate those results to the Clean Power Plan? And what I mean 
by that is, that you believe the effect on the economy would be 
similar?
    Dr. Tierney. Let me address the report that I think you 
were referring to that has recently been published by the 
Economic Policy Institute, and there's another one recently 
published by Industrial Economics. Each of them uses a 
macroeconomic model, and what they do is look at what happens 
when consumers may end up spending less on electricity or they 
might spend a slightly higher amount for electricity but that 
local economy is hiring people to put lighting fixtures, 
insulation in homes, new windows, a variety of different things 
that are job-producing effects. Well, those folks who get those 
kinds of jobs are then spending their own dollars in the local 
economy associated with clean energy investments and those are 
producing jobs that offset some of the other things that may be 
associated with shutting down a power plant just like we all 
shut down our cars from time to time when we think that they're 
old and inefficient. We're seeing here the modernization that's 
going to lead to jobs in local economies.
    Mr. Veasey. Thank you very much. I appreciate that. My time 
has expired. Mr. Chairman, go Frogs.
    Chairman Bridenstine. The gentleman from California, Mr. 
Rohrabacher, is recognized for five minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And going over some of the things that have been said here 
I find quite disturbing, I--let me just note that the CO<INF>2</INF> 
impact on health has been--we continue hearing CO<INF>2</INF> 
is a pollutant, CO<INF>2</INF> is a pollutant, and that some 
people believe that a pollutant actually has to hurt human 
health in order to be a pollutant and there is great--well, 
there's not any controversy at all. CO<INF>2</INF> has no 
direct impact on human health.
    I'd like to ask Dr. Tierney, you mentioned that asthma is 
created by CO<INF>2</INF>. Could you give us any type of 
journal, medical backing for that?
    Dr. Tierney. I didn't say that.
    Mr. Rohrabacher. Yes, you did.
    Dr. Tierney. No, excuse me, I did not.
    Mr. Rohrabacher. All right. I'm taking back my time.
    Dr. Tierney. I did not say that.
    Mr. Rohrabacher. I'm taking back my time. You just said you 
didn't say it.
    Dr. Tierney. I didn't.
    Mr. Rohrabacher. The record will indicate whether or not 
you noted that asthma was a relationship from CO<INF>2</INF>.
    Dr. Tierney. Of the----
    Mr. Rohrabacher. You----
    Dr. Tierney. --other emissions associated with fossil fuel 
combustion. I did not say they were from CO<INF>2</INF>.
    Mr. Rohrabacher. Oh, well the record will----
    Dr. Tierney. Excuse me.
    Mr. Rohrabacher. The record will--you used the word asthma 
and then you went to health impact. I don't know if you're 
trying to get your message through without being responsible 
for the message that's actually being delivered but----
    Dr. Tierney. I will say it very clearly----
    Mr. Rohrabacher. Mr. Chairman, I think I just----
    Dr. Tierney. --I did not say that CO<INF>2</INF>----
    Mr. Rohrabacher. Mr. Chairman----
    Dr. Tierney. --directly is a health problem.
    Mr. Rohrabacher. Madam, Madam, we have a certain length of 
time here. Your disregard for that is arrogant and disruptive. 
Let the members of this committee have their right to ask you 
questions without you utilizing our time so you won't have to 
answer more detailed questions. All right?
    Let me note that the CO<INF>2</INF>--from what I have heard 
today, the CO<INF>2</INF> health impact comes directly because 
of what it does to climate change. We've also heard from our 
opponents today that climate change caused by CO<INF>2</INF> 
causes droughts, causes floods, causes this rain to--causes 
more rain, causes less rain, causes things to be colder, causes 
things to be hotter, has more hurricanes, more rising ocean 
levels. Let me just note that every single malady that you can 
think of in the climate is caused by an increase in CO<INF>2</INF> 
according to what we have heard today from our colleagues on 
the other side of the aisle.
    I, and I believe science, rejects that notion, that 
CO<INF>2</INF>, plugged as--by the way, CO<INF>2</INF> does not 
itself have a health impact on human beings. We had other 
testimony here from other witnesses in the past, very--on the 
other side of this issue who also refused to say that CO<INF>2</INF> 
actually has a direct impact on people's health. So this idea 
that there's any savings whatsoever by these CO<INF>2</INF> 
standards, that that savings is based on the fact that there 
are health-related benefits by having lower levels of CO<INF>2</INF> 
is totally inaccurate.
    Let me suggest that in terms of--you heard it from our 
colleagues on the other side of the aisle, that the pipeline--
in the past we heard--when talking about exaggerated claims, we 
heard the pipeline in Alaska was going to eliminate the 
caribou. We heard that temperatures were going to increase 
dramatically unless we had something about CO<INF>2</INF> and 
reduce the CO<INF>2</INF> levels, that the temperatures were 
going to climb. Well, the temperatures haven't climbed for 17 
years.
    We have basically heard that the polar bears would be 
extinct by now and they're not. We have heard that--again, 
we've heard about more droughts, and even--I--I'm not sure if 
this is your testimony; I'll go back and check--something about 
more hurricanes. We haven't had more hurricanes. There have 
been no more--and the climate is not more aggressive than it 
was in our time of growing up.
    Now, all of these things that supposedly cost money could 
be put into an equation to show that increasing the electricity 
bills is actually going to have a positive impact. It's like 
saying if we break windows, you know, you break the windows of 
a house, that we're going to benefit by that because you're 
going to have to hire somebody to fix the window. Well, that 
makes no sense economically at all. It may seem like it does 
because there's now a job there, but if that job of fixing the 
window wasn't there because you didn't break the window, that 
money would be spent hiring somebody for a job that needed to 
be done that increased the level of wealth in our society.
    I find--it's a good hearing today. Thank you very much. And 
let me just note we only have five minutes to ask questions, 
and when someone tries to filibuster that, they're taking away 
from the validity of the hearing and I resent that. I'm sorry 
if I lost my temper actually, but we have--we all have a right 
to--I'd give you an extra ten minutes if I could but I can't. 
I've got five minutes, so thank you very much.
    Chairman Bridenstine. I'd like to thank the gentleman from 
California.
    I would remind all the folks on our panel--and I do--we're 
going to stick around for a second round at the request of Mr. 
Perlmutter. I'd remind everybody that our witnesses are here at 
our request, and as respectful as we can be even when we 
disagree, that's what we ought to do.
    I'd like to recognize the gentleman from Texas, Mr. Babin, 
for five minutes.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate that.
    And I'll say it for you, Boomer Sooner.
    Well, I live in Texas, District 36. We have more power 
plants, petrochemical facilities than any other district in the 
country. And 63 percent of our electricity is created in coal-
fired plants, which is strange and it was a surprise to me when 
I found this out because the price of natural gas is cheap and 
very plentiful and being produced readily in my State.
    But I had a group of utility folks come to see me last year 
and complained that if this Clean Power Plan is implemented, 
that they are coal-fired plants, 63 percent of our electricity 
is going to be endangered with the--whether you call it 
retirement or whether you call it just simply closing them on 
down.
    This, according to some of the testimony I've heard today, 
would increase our utility bills by up to $70 a month and cost 
the average family of four $2,000 a year in the years to come 
because of the Clean Power Plan. The EIA analysis projected 
that coal production would decline under this plan. How much of 
a reduction in coal production would occur according to your 
analysis, Dr. Gruenspecht?
    Dr. Gruenspecht. Roughly 30 percent. Almost all the coal 
produced in this country is produced for electric power 
generation----
    Mr. Babin. Yeah.
    Dr. Gruenspecht. --so 30 percent reduction generation, 30 
percent reduction in coal production.
    Mr. Babin. Does EIA have any projections on the impact of 
the reduction in coal production--and you may have said this 
earlier and I just happened to miss it--with regard to 
employment in the future?
    Dr. Gruenspecht. I don't think we addressed that in our 
report. It would depend on----
    Mr. Babin. Okay.
    Dr. Gruenspecht. --productivity, trends in the industry. 
You know, coal employment has been falling for quite a while. 
But--and then rising very recently. But 30 percent, you might 
look at 30 percent of whatever the projected employment would 
be would be a good guess since it goes across all regions.
    Mr. Babin. Okay. Dr. Dayaratna, did you have a statistic on 
that?
    Dr. Dayaratna. Excuse me, on what?
    Mr. Babin. In regards to employment, the impact of rising 
coal--reduction in coal production with regards to employment.
    Dr. Dayaratna. I--based on the analysis of the Clean Power 
Plan, I suggested in my written testimony there's some overall 
impact on employment. Beyond that, I have not conducted any 
further analysis.
    Mr. Babin. Okay. What would be the impact of the United 
States, American GDP with regard to coal production reductions? 
Can anyone answer that one?
    Dr. Gruenspecht. Well, I think that's included in our basic 
framework of the .17 to .25, you know, reduction in cumulative 
GDP over the 2015 to 2040 period. So again, there are losses in 
coal, there are gains in other things.
    Mr. Babin. Okay. Well, let's switch over real quick and 
talk about natural gas because this is a big part of our 
economy, and especially in my district. The EIA analyzed the 
impact of the Clean Power Plan on natural gas prices, and found 
that natural gas prices would not rise significantly as a 
result of the rule. Does this lack of price increase depend on 
the availability of domestic natural gas?
    Dr. Gruenspecht. It does take account of that but it also 
reflects the extensive use of renewables for compliance. There 
is a pop in gas prices right around 2020, but over time, 
renewables become more important to compliance and natural gas 
sort of--we view as returning to our baseline view. But the 
view of natural gas is a very important part of this thing.
    Mr. Babin. Right. Yeah, Mr. Eule.
    Mr. Eule. Just to make one comment about natural gas, EPA's 
plan really doesn't take into account the infrastructure that 
would be needed to deliver the gas for its building block two, 
which would increase dispatch from natural gas plants to the 
electricity grid. This is a very, very big concern. Siting and 
permitting is very, very slow in this country and if we're 
going to expect to use more natural gas to meet EPA's goals, 
then we need the infrastructure to deliver that gas to where 
it's needed. And right now, that's a very time-consuming 
process.
    Mr. Babin. Absolutely.
    Thank you, Mr. Chairman. I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I'd like to recognize for five minutes Mr. Westerman from 
Arkansas.
    Mr. Westerman. Thank you, Mr. Chairman. And I will add a 
woo pig sooie to that.
    I'd like to thank the panel for coming today.
    I've got kind of an interesting background as it relates to 
this topic. Before I was in Congress, I'm an engineer and I 
designed industrial manufacturing facilities, including 
renewable energy facilities. Even the renewable energy 
facilities had to go by the EPA guidelines for permitting. And 
another interesting thing, even renewable energy facilities 
take into account their pro forma analysis of electrical cost 
and whether to build the facility or move somewhere else where 
electrical costs are lower.
    Also, I did graduate work at the Yale School of Forestry 
and Environmental Studies, which is a leading institution in 
environmental responsibility, so I've got a pretty good grasp 
and understanding of that as well.
    In my State of Arkansas we have a wide variety of energy 
sources. We have coal, natural gas, hydro, nuclear, and we've 
got a variety of renewables there. We're a relatively small 
State. We've only got about 16,000 megawatts of total 
electrical generating capacity and we do export electricity out 
of Arkansas.
    About 40 percent of our power comes from coal. We happen to 
have the most efficient, low-emission coal plant that can be 
built. It's the Turk Plant. And thanks to research and 
technology and better materials, we're able to use ultra-
supercritical process. It allows higher temperatures and 
pressures and makes that facility about 40 percent system-
efficient versus 30 percent for a traditional coal-fired 
facility.
    Now, when we look at renewables in my State, we are blessed 
with an abundance of biomass. That's our largest source of 
renewable energy there. Our state forestry economists said that 
we've got right now in excess of 18 million tons per year of 
growth in our state. That's timber and biomass growth that's 
not being utilized right now. If every bit of that could be 
harvested and put into a renewable energy facility making 
electricity, it would make less than 1/10 of the 16,000 
megawatts that are produced that we have in generating capacity 
right now. We're talking about cutting millions and millions of 
acres of timber and putting it all in a power plant to make 1/
10 of our needs currently.
    These regulations create a Catch-22 for a coal-fired plant 
in my State. They say you have to have an efficiency rate of X, 
you've got to have an emission rate of Y. When you put the 
control technology and to get the efficiency rate or to get the 
emission rate, you lower the efficiency rate, so you've put 
this coal-fired plant in a position where it can't succeed. If 
it closes down in the real world it'll make electrical rates 
for consumers drop to--or rise to 20 to 40 percent more than 
they currently are.
    So, Dr. Dayaratna, I've got a question for you. In your 
testimony you indicated that you've used the same economic 
model as EIA to calculate impacts of the Clean Power Plan. Your 
analysis has determined that households will see a loss of 
$2,000 of income as a result of this rule, so what are some of 
the real-world impacts of a loss of $2,000 of income as a 
result of the Clean Power Plan?
    And also, are the impacts of the plan even greater for 
families that are on fixed incomes because I've got a lot of 
families on fixed incomes in my district.
    Dr. Dayaratna. Yeah, thank you for your question, 
Congressman.
    The--I just want to correct something. This is based on 
the--I didn't rerun the dissimulation myself. This is based on 
their results that are online. But I have used the National 
Energy Modeling System myself many times before. So, yes. I 
suggested in my testimony that during the course of the next 
decade, as a result of the impacts on GDP, this would cost--the 
Clean Power Plan will cost a family of four nearly $2,000. And 
that is roughly the cost of like a full semester's worth of 
tuition at a local junior college, which is--which isn't 
trivial at all.
    And furthermore, unemployment will increase, jobs will be 
killed, and this will significantly harm people. It'll make it 
difficult to move up the ladder in this country. And it will 
harm people on fixed income.
    Mr. Westerman. All right. And moving along, Dr. Gruenspecht 
and Mr. Eule, can you give us just a brief overview of the cost 
of electricity produced from different fuels? Like what is the 
lowest-cost electricity and what is the highest cost if you 
look at nuclear, Hydro, coal, natural gas?
    Dr. Gruenspecht. Well, this is a good question and you have 
to be really careful about this. And it came up in an earlier 
question by one of your colleagues. You have to distinguish 
between the cost going forward, so like a coal plant, very 
expensive to build, you probably wouldn't build it today given 
natural gas prices, but the cost of running that coal plant is 
very cheap, you know, relatively cheap, on average across the 
country, the fuel cost would be $24 a megawatt hour, 2.46----
    Mr. Westerman. Let me just move on because I'm almost out 
of time.
    Dr. Gruenspecht. Yes.
    Mr. Westerman. Is it--have we fully developed renewable 
technologies or--to make them cost-competitive with traditional 
fuel sources?
    Dr. Gruenspecht. I think they're very competitive if you 
need new fuel capacity. But the issue here is replacing 
existing generation from existing capacity with new generation 
from new capacity, and that's the issue. It's not the 
comparison of the levelized cost that was shown earlier. It's 
the operating cost of what you have now versus what you will 
bring in to replace it, which will have to cover not only its 
operating costs but it's capital costs of building it.
    Mr. Eule. May I add onto that? Renewables are also 
intermittent so they need backup. Oftentimes, when you build 
renewables, you have to build the transmission lines because 
where the renewable power is generated isn't where the people 
live so you have to--the expense of building additional 
transmission lines. There are a lot of costs involved in--of 
very rapid build-out of renewable energy that have to be 
considered.
    Mr. Westerman. Where I was leading with that was would it 
be better to invest more in research to make renewables fit 
into their place better and utilize the low-cost traditional 
fuels that we have in place today?
    Mr. Eule. And I think the better approach, instead of 
making cheap energy expensive, it's probably better if we try 
to make expensive energy cheap.
    Mr. Westerman. Thank you, Mr. Chairman.
    Chairman Bridenstine. The gentleman yields back.
    The gentleman from Louisiana, Mr. Abraham, is recognized 
for five minutes.
    Mr. Abraham. Thank you, Mr. Chairman, and thank the 
witnesses for being here.
    Mr. Eule, I'll start with you and then I'll follow up with 
Dr. Dayaratna.
    This Administration, Obama Administration, has been 
increasingly relying on the social cost of carbon in order to 
justify all these regulations that they're throwing out there. 
Can you please explain the social cost of carbon and some of 
the controversy surrounding the analysis to measure the 
supposed benefit of this Clean Power Plan?
    Mr. Eule. Sure. I mean the social cost of carbon is a tool 
that folks use to measure the alleged benefits of producing 
CO<INF>2</INF> emission. This could be benefits as far as 
agriculture go, there are some health benefits involved, some 
benefits to forestry, a whole host of things that go into the 
social cost of carbon.
    It's very controversial. The models that they use, if 
they're tweaked a certain way, can actually come up with a 
negative social cost of carbon. So no one quite knows what the 
level is but that hasn't stopped the Administration from 
certainly making an attempt to come up with a number. And they 
have. And when you employ that number and use it compared to 
the GDP losses that EIA identifies in its model, you wind up 
still with a negative net--a net cost in GDP to the country.
    Mr. Abraham. Okay. Dr. Dayaratna, let me refer to you on 
this. Would you explain how the models used to calculate the 
costs are flawed?
    Dr. Dayaratna. Excuse me. You're asking me to--can you 
repeat the question?
    Mr. Abraham. Well----
    Dr. Dayaratna. Yeah.
    Mr. Abraham. --Mr. Eule just said that, you know, there's 
some controversy----
    Dr. Dayaratna. Yes.
    Mr. Abraham. --and I guess my question would you please 
explain how the model is used that he was referencing used to 
calculate the social cost of carbon are actually flawed? What--
--
    Dr. Dayaratna. How are they flawed? That's the question.
    Mr. Abraham. How--exactly.
    Dr. Dayaratna. All right. Okay. Well, the issue is, 
firstly, and a variety of issues that I've looked at these in 
my own research, that there are three integrated assessment 
models that the EPA has used to compute the social cost of 
carbon, the DC. model, the FUND model, and the PAGE model. We 
looked at two of these three models in my research, and the 
larger issue is that there are extremely sensitive to choices 
and assumptions.
    And when you tweak the assumptions slightly ranging from 
the discount rate to the ECS distribution to the end year, 
these models end up trying to make projections 300 years into 
the future, which is just completely ridiculous. And if you 
even tweak that to make it say an unrealistic end year, say 150 
years into the future, you get vastly different estimates of 
the social cost of carbon. And in some cases, as Mr. Eule 
suggested, you can even get negative estimates of the social 
cost of carbon, suggesting that there are even benefits to 
carbon dioxide emissions primarily due to like issues like 
fertilization. So with the results all across the map, their--
the tool is just completely unreliable for these purposes.
    Mr. Abraham. Okay. Thank you very much.
    And I'm going to follow up with you again, Dr. Dayaratna.
    Dr. Dayaratna. Sure.
    Mr. Abraham. Your testimony indicated that even if all the 
carbon emissions were brought to zero in the United States, the 
global temperature would decrease by 2/10 Celsius. Does that 
mean, then, that the Clean Power Plan represents only 
tremendous costs without measurable benefits?
    Dr. Dayaratna. Exactly, yes. The Clean Power Plan will--
it's just--it's an extremely expensive way to approach an issue 
that will provide, you know, negligible impact and it will just 
kill jobs and stifle the American economy for years to come.
    Mr. Abraham. Thank you. Mr. Chairman, I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I'd like to recognize the gentleman from Alabama, Mr. 
Palmer, for five minutes.
    Mr. Palmer. To continue the theme, ``roll tide,'' and I 
guess ``war eagle'' since my kids went to Auburn. But anyway, I 
want to get into these questions real quick.
    You know, there is a lot of talk about how the Clean Power 
Plan is going to impact the economy and impact job growth. And, 
Dr. Tierney, you talked about how it's going to lower heating 
costs, and I think you said something about--that heating costs 
have gone down in Boston. I think the fact of the matter is is 
that it's gone up 37 percent and last year was particularly 
tough on families of the Northeast.
    Dr. Tierney. You don't have to tell me that.
    Mr. Palmer. Okay.
    Dr. Tierney. I don't know that.
    Mr. Palmer. Here's something I want to point out. Now, this 
is the interesting thing about this is you talk about how this 
green technology is going to lower energy costs and everything. 
In December 2005 when the State of Maryland began implementing 
their plan for going over to renewables, the cost of natural 
gas was $13.05 per million BTUs. Do you know what it was in 
December 2014?
    Dr. Tierney. It was probably 1/3 of that because of 
disruptive technologies of hydraulic fracturing and directional 
drilling that combined were applied--
    Mr. Palmer. Well, you're close. You're close. It was $3.48. 
Now, the interesting thing is is that over that same period of 
time, household energy costs went up 61 percent. Now, when you 
start talking about disruptive technology, that's pretty 
disruptive.
    And I also want to point out, you know, Mr. Rohrabacher got 
a little emotional there and I think he got off topic, but he 
was talking about asthma rates. And you also made this point 
that our GDP has tripled since the passage of the Clean Air 
Act. Since 1980 it's grown 460 something percent. At the same 
time, vehicle miles driven have gone up 90 something percent, 
energy output has gone up 32 percent, the population has gone 
up 38 percent, yet emissions have gone down 50 percent.
    Now, the interesting thing about that is is that we've had 
an explosion of asthma cases. That doesn't quite compute from a 
health benefit perspective when the air is demonstrably cleaner 
today than it has been in the last 50 or 60 years, yet asthma 
rates have gone up. And the other interesting thing about it is 
is that it's related to income, the problem with asthma. 
There's a study out of UCLA that indicates that the 
preponderance of asthma cases in California are among the low-
income households.
    Now, I want to get into how this new Clean Power Plan is 
going to impact that. You talked about that one of my 
distinguished colleagues mentioned that employment has gone up. 
Well, actually it hasn't. And there's a new report--an article 
by the CEO of Gallup talking about the big lie, you know, we're 
reporting that our unemployment rate is below six percent when 
in fact it's--I've got the numbers here--it's over--thank you. 
Ignore the buzzer.
    The unemployment rate in reality is about 15.8 percent. And 
the way this was calculated is the reported unemployed U.S. 
workers is 9 million, involuntary part-time workers is 6.8 
million, the marginally attached to the labor force work is 2.1 
million, and then the additional unemployed workers with 65 
civilian labor force participation rate is 7.--almost 8 
million. That's 26 million people who are either unemployed or 
underemployed or just quit looking.
    So I want to point out that when you take into account 
what's going on with these renewables and the regulatory 
environment that's been created and the impact on the economy, 
it's devastating and it's going to have a very negative impact 
on people's health.
    Mr. Eule, I think you wanted to say something.
    Mr. Eule. Yeah, the employment numbers you pointed to, very 
interesting. If you take a look at the employment numbers since 
the end of 2007 for the rest of the economy other than the oil 
and gas industry, employment has been essentially flat. In 
other words, it's about returned to the place where it was at 
the end of 2007. Employment in the oil and gas sector, because 
of the disruptive technologies, fracking has gone up about 40 
percent. So the energy revolution that's underway now in the 
United States has really been a driver of employment.
    Mr. Palmer. That's the only thing that's really saved us 
and kept us to this point. Also----
    Dr. Tierney. But, you know, renewables are cheaper in some 
parts of the country than a fossil fuel technology. Recently in 
Minnesota, for example, there was a request to have offers from 
different suppliers. Natural gas-fired power plants did not 
beat the price of a renewable project.
    Mr. Palmer. If I may reclaim my time, Mr. Chairman, I just 
would like to point out, though, that there's an offset here 
and the offset is far more negative than the positive.
    So I yield the balance of my time. Thank you.
    Chairman Bridenstine. The gentleman yields back. I think 
we--is there anybody that hasn't been heard? I think we've been 
through the list on both sides so we're going to go into a 
second round of questions.
    Was that a call for the votes, by the way, that--Okay. 
Okay.
    So we're going to go into a second round of questions as we 
have time here.
    I've been--I obviously--you guys have heard me say Boomer 
Sooner to my Texas friends on the panel on both sides of the 
aisle. In full disclosure, I actually went to Rice University 
in Houston, Texas, which is in Texas, and my constituents are 
aware of that so I'm going to be okay there.
    But one of my good friends Chuck McConnell is the Executive 
Director of a department at Rice University called Energy and 
the Environment. He was in the Obama Administration from 2011 
to 2013. He was the Assistant Secretary of Energy at the 
Department of Energy from 2011 to 2013. He wrote an op-ed that 
was in The Hill recently. He says this: He says ``I just spent 
a day in Washington last month testifying before the House 
Science, Space, and Technology Committee on the Environmental 
Protection Agency's recently released Clean Power Plan, 
specifically the EPA's 111(d) rule. I was honored to be asked 
to testify and came away simply amazed at the misdirected 
political rhetoric around climate change that dominated the 
hearing. I was often offered an insightful and--I was often 
offered as insightful and concerned inputs about jobs and our 
environment, was completely disconnected from what this 
proposed policy would achieve and absent any connection to 
fact.
    This clean carbon plan does not''--and then he says ``let 
me repeat, the plan does not impact CO<INF>2</INF> levels or 
climate change at any relevant or impactful way.'' This is a 
former, you know, Administration official. ``Discussion about 
implementation and policy and economic impact abounds, but the 
fundamental truth is that this rulemaking does not reduce 
CO<INF>2</INF> or greenhouse gas to affect the climate. So how 
disingenuous is it to talk about climate change, jobs, our 
future, implementation, et cetera? We're acting as if 
meaningful discussion for our citizens--we're acting as if it 
is meaningful discussion for our citizens and it masks the 
facts.
    These are the facts for EPA 111(d) if fully implemented.'' 
He says this: ``Number 1: a .18 percent reduction in global 
CO<INF>2</INF> output,'' .18 percent reduction of--he says 
``The resulting .01 degrees Celsius impact to global 
temperature,'' .01 degrees Celsius impact. And if I remember 
from his testimony, I think these facts were from EPA's own 
models but I'd have to go back and check that. ``A resulting 
impact of the lessening of global sea rise by an amount equal 
to 1/3 the thickness of a dime,'' 1/3 the thickness of a dime, 
and again, I think that's from the EPA's own models.
    ``Can we be serious that this is meaningful, relevant, and 
impactful? EPA Administrator Gina McCarthy''--this is from 
Chuck McConnell--``EPA Administrator Gina McCarthy has already 
answered that question in testimony to the House of 
Representatives in 2013. That answer was and is today ``no.'' 
McCarthy admitted this fact but added that the United States 
needed to take this action to gain ``political leverage'' in 
the world and show ``climate change leadership.'' This is from 
one of the Obama Administration's own officials who is now at 
my alma mater Rice University.
    Mr. Eule, you prepared testimony. You referenced the EIA's 
projection of cumulative reduction of CO<INF>2</INF> emissions 
by 6.2 gigatons in 2030. How does this reduction compare to 
global carbon emissions, 6.2 gigatons compared to global carbon 
emissions?
    Mr. Eule. That is 6.2 gigatons saved over 11 years, so it's 
a very, very small amount. And you get an idea of how small. In 
2030 Chinese emissions will offset that 6.2 gigaton reduction 
in a little over 7 months.
    Chairman Bridenstine. So it's--your quote was very, very 
small.
    Mr. Eule. Very, very small.
    Chairman Bridenstine. What about emissions from China 
specifically? Do you have information on that?
    Mr. Eule. Information--emissions from China, depending on 
which model you use, emissions from China, carbon dioxide 
emissions, not talking about total greenhouse gas emissions, 
carbon dioxide emissions in 2030 could be anywhere from nine to 
ten billion-gigatons so----
    Chairman Bridenstine. Got it. The EIA describes the impact 
from the Clean Power Plan on GDP as ``equivalent to changes of 
a few tenths of one percent from the baseline given the 
magnitude of GDP and disposable income accumulated over the 
2015 to 2040 period.'' Can you elaborate on this 
generalization, Mr. Eule?
    Mr. Eule. It's a significant amount of money, and the way 
that I calculate it, it's a cost of about $1.2 trillion over 11 
years. Even in Washington, that should be considered real 
money.
    Chairman Bridenstine. Dr. Dayaratna, what is the value to a 
family of four of that GDP impact?
    Dr. Dayaratna. So as I----
    Chairman Bridenstine. Will you turn on your microphone?
    Dr. Dayaratna. As I said in my--I was alluding to in my 
testimony, by the middle of the next decade it would cost a 
family of four nearly $2,000.
    Chairman Bridenstine. Okay. That's good information. Now 
that I have made the blood boil of my good friend from 
Colorado, Mr. Perlmutter, I would like to recognize him for--
now that my time is expired, I'd like to recognize him for five 
minutes.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And, Dr. Dayaratna, I want to apologize. I got a little 
aggressive with you and I'll tone it down. I do want to start 
with a question for you going back to--you know, for me I'm 
agnostic as to the energy source or energy efficiency, that we 
just continued--you know, the title to our committee is 
Science, Space, and Technology, technology being the key here 
as to disruptive technologies that continue to provide more 
energy at less cost with innovation and invention, okay?
    So would you be opposed--there's a company in Boulder, 
Colorado, called Zolo Technologies. And what they've done is 
they've taken the ability--these guys are rocket scientists 
actually from the Jet Propulsion Laboratory, and they're 
improving the burners of coal-fired power plants to get more 
power per ton from coal. Would you have any opposition to that 
in----
    Dr. Dayaratna. In terms of letting innovators do what they 
want to do in terms of the free market, no.
    Mr. Perlmutter. So I mean that kind of efficiency is 
something you would embrace? You know, you're saying if there's 
a regulation that forces that, you won't embrace it, but just 
on its own, you would embrace it?
    Dr. Dayaratna. I mean I would have to see the details of 
that. I mean I came here to discuss the impacts of the Clean 
Power Plant itself.
    Mr. Perlmutter. Right. So--but you wouldn't object to more 
efficient power production, would you, just as a general 
proposition?
    Dr. Dayaratna. I mean, again, so I would have to see the 
general details of what you're describing.
    Mr. Perlmutter. You're going to get me more aggressive here 
as we go through. You would have to see it. I agree. Okay.
    Dr. Dayaratna. So----
    Mr. Perlmutter. So, I mean, yeah. I do want to----
    Dr. Dayaratna. The devil is in the details.
    Mr. Perlmutter. --you to know you have a friend up here who 
said you're a good guy and for me not to be so harsh on you. So 
I will not be harsh and I will turn to Dr. Tierney and I won't 
be harsh on her. I'm going to try to be not a trial lawyer 
cross examining you all.
    Dr. Tierney, I had a slide up there--if we could put the 
one up on the solar projections--that shows how the EIA has 
projected solar usage over the last few years, and based on 
this chart, they've underestimated the construction and the 
building of new solar generation. Can you comment on that, 
please?
    Dr. Tierney. Yes. In fact, if you were to take those annual 
energy outlooks for many years before 2010, which you're 
showing on this chart, and look over the past decade, each of 
the outlooks that EIA has used looking forward to the amount of 
installed renewables--I'll put it solar, wind, other renewable 
technologies all combined, they have undershot what has 
actually happened in the real world in part because the cost 
reductions of these technologies is moving forward at such a 
clip that they are coming in at lower cost on an installed 
basis.
    Mr. Perlmutter. So based on the cost piece solar is coming 
in, you know, less per kilowatt hour, wind is coming in less 
per kilowatt hour, natural gas coming in because of changes 
through fracking and innovation in the oil and gas industry, 
less per kilowatt hour, right?
    Dr. Tierney. Yes. I mean what we saw for natural gas was 
over a period from mid-2007 to 2012 we saw dramatic increases 
in electricity generation. Those have kind of flattened off in 
some sense because we have not continued to see the declines 
that we saw over the last year when technology was first being 
introduced.
    Mr. Perlmutter. Okay. Dr. Gruenspecht, you wanted to 
comment?
    Dr. Gruenspecht. Well, thank you so much for recognizing 
me.
    Mr. Perlmutter. You're----
    Dr. Gruenspecht. Since we seem to direct questions about 
EIA to everybody but EIA, I think it might be useful----
    Mr. Perlmutter. You want me to cross examine you?
    Dr. Gruenspecht. No. I welcome it actually. It'd be very 
interesting.
    Mr. Perlmutter. Okay.
    Dr. Gruenspecht. But I do want to point out, you know, we 
do pay careful attention to renewables in our projections. I've 
been reading a lot of press articles. You know, actually 
there's a publication called Politico that ran something this 
morning, an appropriately named publication. It should not be 
called Analytico for sure. The top of this things says in 2009 
the federal government's EIA made a forecast for the next two 
decades wind power would reach 44 gigawatts in 2030 and then 
just six years later U.S. wind capacity is already up to 66 
gigawatts and kind of basically this guy has these interesting 
tweets and he says we're idiots pretty much. He didn't use that 
word.
    But I would say this, our projections are appropriately 
developed based on current laws and regulations given EIA's 
role. You are the policymakers. You and the people at the other 
end of Pennsylvania Avenue are the policymakers. We don't guess 
what you're going to do.
    I would say that in 2009 this body met and passed something 
called ARRA, the American Recovery and Reinvestment Act, a very 
important piece of legislation. We came out in April of 2009 
with an update to our reference case of our Annual Energy 
Outlook, and in that reference case we had a projection for 
wind energy for 2014. It was, guess what, 65 gigawatts. These 
projections are not always going to be right, but it is exactly 
what the capacity at the end of 2014 was.
    So, you know, we can play these games and put up charts 
like this and pretend it's all about technology progress, and 
there are surprises and there are disruptions, but a lot of 
what goes on here----
    Mr. Perlmutter. I'm going to reclaim my time because I 
wasn't----
    Dr. Gruenspecht. It doesn't----
    Mr. Perlmutter. I was not putting this up there as a cheap 
shot.
    Dr. Gruenspecht. Okay.
    Mr. Perlmutter. I was putting this up there to show that 
there have been improvements. I don't mind that you're 
conservative in your estimations and your predictions.
    Dr. Gruenspecht. Thank you.
    Mr. Perlmutter. You know, the future is always kind of a 
fuzzy thing for most people.
    Dr. Gruenspecht. Right. That's not what I said.
    Mr. Perlmutter. So I was not taking a cheap shot by putting 
that up there.
    Dr. Gruenspecht. I say you're not. I'm saying the policy 
matters so that, yes, there are improvements in technology, 
yes, there are improvements, but things like a 30 percent tax 
credit, things like a production tax credit, those are the 
things that have driven this thing, because in April of 2009, 
after taking account of the ARRA, we projected the wind 
capacity at 65 gigawatts, which is exactly what it is in 2014.
    You read the article in Politico, which I know you didn't 
write so you don't have to take credit for it, but----
    Mr. Perlmutter. I don't read Politico.
    Dr. Gruenspecht. You shouldn't. It's a waste of time. But 
I--you know, but basically I say----
    Mr. Perlmutter. I take it back. I do read Politico from 
time to time.
    Dr. Gruenspecht. Well, you----
    Mr. Perlmutter. I don't want to--yeah.
    Dr. Gruenspecht. You had extra time then.
    Mr. Perlmutter. All right.
    Dr. Gruenspecht. But all I want to say is this----
    Mr. Perlmutter. Let's----
    Dr. Gruenspecht. --it's policy as well as--you know, we 
tell the story and it's legitimate about, you know, 
unanticipated advances, this and that, but a lot of what 
happens is driven by policy, and to talk about how off EIA 
projections are that don't take account of policies, when we 
take account of the policies like our update after you passed 
the ARRA, the projections are actually--turn out to be quite 
good.
    Mr. Perlmutter. Okay.
    Dr. Gruenspecht. So again----
    Mr. Perlmutter. Thank you very much.
    Dr. Gruenspecht. You're very welcome.
    Mr. Perlmutter. And I yield back my time----
    Chairman Bridenstine. Thank you.
    Mr. Perlmutter. --and whatever may exist of it.
    Chairman Bridenstine. I appreciate Mr. Perlmutter from 
Colorado----
    Dr. Gruenspecht. And I appreciate him.
    Chairman Bridenstine. I'm glad I'm on the side of the table 
and not on that side of the table.
    I would say, Dr. Dayaratna, you mentioned earlier that the 
Obama Administration has fundamentally expanded regulations 
across the energy sector, and I know Mr. Perlmutter got on your 
case about that. I would just say this: When the President was 
asked in 2008 as he was campaigning--they asked him at the San 
Francisco Chronicle, they said are you going to shut down coal? 
And he said, no, I'm not going to shut down coal; I'm just 
going to make it so expensive that they won't be able to 
operate.
    Dr. Dayaratna. Yes.
    Chairman Bridenstine. So I would say that your testimony is 
accurate.
    I'd like to recognize the gentleman from Texas, Mr. Weber, 
for five minutes.
    Mr. Weber. I want to note that the preceding editorial 
comments about Politico were not necessarily reflecting the 
views of the management or any other living Member for that 
matter.
    And the President did say, by the way, while he was running 
to the Chairman over here to my right that under his energy 
plan electricity prices would of necessity skyrocket, his 
words, not mine. Find the YouTube. So you're absolutely on 
track with that.
    Dr. Gruenspecht, in your bio here that was along with our 
notebook, it's written that you were the Economic Advisor to 
the Chairman of the U.S. International Trade Commission 1988 to 
1990.
    Dr. Gruenspecht. I think that's accurate.
    Mr. Weber. You think that's accurate? Well, I'm glad that 
at least some of the information we have is accurate. So you 
kept up with international trade obviously. So following this 
energy debate, once we shut down coal prices or, as the 
President said in San Francisco, make it too expensive for them 
to operate, do you think, based on your experience with the 
U.S. International Trade Commission, that other countries are 
going to follow suit or is this going to put us at a--the 
United States had a comparative disadvantage?
    Dr. Gruenspecht. I can't speculate on that. I have no--
    Mr. Weber. Fair enough. You don't want to say, that's fine. 
You have to have an--I would think you'd have an opinion.
    Furthermore, in your testimony you basically say on page 
three of it that ``there is considerable uncertainty and many 
challenges'' or--and I'm reading from your testimony--``many 
challenges are involved in projecting the impacts of the 
proposed Clean Power Plan.''
    Dr. Gruenspecht. Yes.
    Mr. Weber. You did make that comment? So in your 
estimation, your opinion, is it worth that kind of uncertainty, 
all of the downturn in the economy that we've talked about with 
the minimal uptick on good stuff? Do you know what I'm saying? 
Do you think it's worth that risk?
    Dr. Gruenspecht. Well, again, I'm--I mean we did our best 
job on this thing. We take our role pretty seriously--
    Mr. Weber. Yeah. Okay. How about you, Mr. Eule? You think--
with the considerable uncertainty, you think it's worth that 
risk?
    Mr. Eule. The numbers don't indicate that it is.
    Mr. Weber. They don't. Let me just follow with what Dr. 
Babin said earlier about the coal industry. I looked it up on 
Google real quick and there was 174,000 jobs in the coal 
industry, so I think the figure thrown out there was 30 percent 
reduction. So, you know, do the math. That was 174,000 direct 
jobs. So--and then there was a lot of indirect jobs that--a lot 
of jobs that were supported indirectly by the coal industry. 
It's not worth that risk.
    Let me move on here. You also said in your testimony, Dr. 
Gruenspecht, since you wanted to be cross examined----
    Dr. Gruenspecht. I was getting a little bored.
    Mr. Weber. You were getting a little bored? You looked a 
little sleepy there for a minute. You said that the 
construction of new generation to comply with the Clean Power 
Plan may necessitate upgrades and expansion of electric power 
transmission systems. We would call that infrastructure. Okay.
    Dr. Gruenspecht. That's right.
    Mr. Weber. Additional costs. So you're actually--there's 
another factor in here that we don't know what that would 
require that's going to be the additional cost, which would 
further increase the price of electricity possibly. Now, on 
page five of your testimony--I'm sorry, on page three of your 
testimony, again you said in the last paragraph ``NIMS does not 
consider how deliverability of natural gas to power plants 
using that fuel might be impacted.'' And there at the very 
bottom you said because of the shift away from coal toward 
``intermittent'' renewables, is intermittent another word for 
unreliable?
    Dr. Gruenspecht. Intermittent is a--means that you can't 
dispatch them. You can't just order them to turn on when you 
want them.
    Mr. Weber. So when you want them and they're not there, 
would you say that--would you admit that that's unreliable?
    Dr. Gruenspecht. Well, it's not available. You have to do 
something else.
    Mr. Weber. Okay. Well, to me when energy is not available 
when you want it, that seems pretty unreliable, not that I'm 
putting words in your mouth. Okay.
    Dr. Gruenspecht. You'd have a hard time doing that.
    Mr. Weber. You know, I can believe that.
    Now, let me just tell you, you also said earlier that we 
were the--just in your recent exchange with the cross examiner 
over here to my right----
    Dr. Gruenspecht. My friend.
    Mr. Weber. Your newfound friend, your BFF, that we are 
policymakers along with the gentlemen at the other end of 
Pennsylvania Avenue or something like that.
    Dr. Gruenspecht. That's right. We're located right in the 
middle.
    Mr. Weber. In theory, that's supposed to be true but the 
truth of the matter is when the EPA unilaterally under the 
President's direction decides to implement these kinds of 
policies, that actually takes Congress out of the policy 
decision-making chair. So I just want to opine on that.
    Finally, I own an air-conditioning company, 34 years. I can 
tell you about power. I can tell you about SEERs, seasonal 
energy efficiency ratings.
    Dr. Gruenspecht. Yeah.
    Mr. Weber. I can tell you about the number of amps 
compressors draw on. I can tell you about the number--the 
houses and the cooling bills and what they use in Texas in the 
way of energy. And I will just tell you that when you take a 
family on a low income and they need a new air-conditioning 
system and the standard efficiency is going to cost them 4, 5, 
6, $7,000 to put that new system in their house but a high-
efficiency--let's say $5,000--but a high-efficiency system is 
going to cost $8,000, trust me, based on 34 years' worth of 
experience in the Gulf Coast of Texas, they're going to opt for 
the lower efficiency equipment. So when you drive energy prices 
up, they're not only not going to be able to take advantage of 
them, they're going to have less money in their pockets even to 
buy high-efficiency equipment. And so I take this very 
seriously when we start increasing their price.
    Mr. Chairman, I'm going to yield back.
    Chairman Bridenstine. The gentleman yields back.
    I do need a new air-conditioning unit in my home so I'll 
probably be giving you a call.
    Mr. Weber. 281-4859.
    Chairman Bridenstine. I'd like to recognize the gentleman 
from California, Mr. Rohrabacher, for five minutes so long as 
he commits to not yell at the witnesses.
    Mr. Rohrabacher. All right. Well, I think if my colleague 
from Colorado can be so gracious as to apologize for being too 
combative, I, too, can be that gracious and apologize for being 
too combative with Dr. Tierney.
    And as I said, I would give you the time if I had it and I 
do have the time, so I'm going to yield one minute and a half 
to Dr. Tierney, who has got lots of comments and hasn't been 
able to make them because we've had witnesses on the side, 
whatever you'd like to put into the record now about what you 
gleaned from this hearing.
    Dr. Tierney. Congressman, that was so generous.
    Mr. Rohrabacher. All right.
    Dr. Tierney. And I apologize in turn for stepping on your 
own words, so thank you very much.
    Mr. Rohrabacher. All right.
    Dr. Tierney. I appreciate that.
    I think the one thing that I want to say is with regard to 
this question of whether or not acting through the Clean Power 
Plan will make a difference in the emissions that contribute to 
climate change, in the world, 1 out of every 15 tons of 
omissions anywhere in the entire globe comes from the United 
States' power generation sector. Reducing ten percent, reducing 
20 percent, reducing 30 percent of that would--is equivalent to 
the tons of emissions that are produced by scores of countries 
around the world. This will make a difference and it will be 
affordable by the United States.
    It does--global warming is causing tremendous impacts 
around globe. I'm not a Catholic person--I mean I'm not a 
Catholic. That sounds crazy what I said. I am not a member of 
the Catholic Church. I am so impressed that we have a global 
leader who has written and is cyclical who has talked about the 
impacts of a warming globe on the poorest of the poor around 
the world.
    We can make a difference here. It is worth doing. We are 
not going to kill jobs. The economy will come out in a robust 
fashion. We are Americans and we can do this. Thank you very 
much.
    Mr. Rohrabacher. All right. Well, thank you. And let me----
    Chairman Bridenstine. Try not to yell.
    Mr. Rohrabacher. Let me just note that we--there are 
fundamental differences in the analysis of what the science 
says. And as I say, when I have heard over the--my lifetime, I 
remember when Jacques Cousteau when I was a young reporter told 
me that the oceans would be black goo within ten years. And I'm 
a surfer and I can tell you that oceans are not black goo. I 
was just out on a surfboard last weekend. I actually had a word 
that we had 66 people on one surfboard in Huntington Beach and 
I'm very proud of that.
    Dr. Tierney. So I used to do body surfing at the Wedge 
growing up as a girl, so I know this well. I was raised in 
Redlands, California. I'm going out with you.
    Mr. Rohrabacher. You know what, we probably were body 
surfing at the Wedge together. It was my favorite spot when I 
was younger.
    Dr. Tierney. Me, too. It was awesome.
    Mr. Rohrabacher. Okay. There you go.
    Now--but with that said, people who are benevolent people 
can disagree and disagree aggressively. I certainly disagree 
with the idea that CO<INF>2</INF> is causing any change in the 
climate, especially manmade CO<INF>2</INF>, which is only ten 
percent of the CO<INF>2</INF> that's in the air. And all of the 
CO<INF>2</INF> that we're talking about, the minimal amount 
that this draconian regulation is going to have on our society, 
even that tiny bit is just what mankind or what Americans of 
mankind are contributing. We're talking about a microscopic 
impact if there is any impact on CO<INF>2</INF> at all on our 
climate.
    But the cost, and then again here we go into the cost that 
we're being said is a--compensates for this is going to be that 
our health benefits are going to be better or because people--
if indeed the climate is better, fewer people will get sick, 
there'll be less people dying in India because of the heat 
waves or Boston because of the snow in the winter time. It just 
doesn't pencil out. And when it doesn't pencil out, it means 
there's less wealth in the society.
    Efficiency through better technology does mean there's more 
wealth in society. But efficiency that's generated by 
regulation, as we have heard here, is most often accompanied by 
mandatory controls and/or, I might add, tax supplements which 
cost the federal government revenue that could go into 
education and other type of programs for today.
    So when you're consuming wealth in order to promote 
technology that would not otherwise be implemented, that wealth 
is not available for the other things government has to do. And 
if we take it out of somebody's pocket, personal pocket, then 
they don't have the money to pay for their kids' junior college 
education. So there's really a cost that we may disagree on 
that and I don't believe that the health benefits that will 
derive from changing the climate--and of course we don't 
believe the climate will change on this--but those health 
benefits in some way are going to offset the cost of what 
we're--of what's being imposed by these regulations.
    And thank you very much for understanding.
    Chairman Bridenstine. The gentleman yields back. That was 
actually quite nice. And I think I might like the other Dana 
Rohrabacher better.
    The gentleman from Louisiana, Mr. Abraham, is recognized 
for five minutes.
    Mr. Abraham. Thank you, Mr. Chairman. It won't take that 
long.
    Just one quick question to follow up on--Dr. Gruenspecht, 
I'll direct it to you. What's the total estimated loss to the 
GDP in dollars, not--we've been talking about tenths of percent 
and that type of--on the Clean Power Plan, but the estimated 
cost in dollars year-to-year is analyzed by the EIA.
    Dr. Gruenspecht. It's cumulative over 2015 to 2040----
    Chairman Bridenstine. Will the gentleman turn on his 
microphone?
    Dr. Gruenspecht. Excuse me, sir. Cumulative over 2015 
through 2040, it's 1 to 1-1/2 trillion--3--depending on how 
you----
    Mr. Abraham. Three with a T?
    Dr. Gruenspecht. Trillion with a T.
    Mr. Abraham. Okay.
    Dr. Gruenspecht. So again, there are two figures, figures 
38 and 39 that show the same information. You know, it's all a 
question of framing. Different people want to frame this in 
different ways. We try to frame it pretty neutrally.
    Mr. Abraham. Okay. That's all I had, Mr. Chairman. Thank 
you. I yield back.
    Chairman Bridenstine. The gentleman yields back. This is 
the end of our hearing. I thank the witnesses for their 
valuable testimony and the Members for their questions. The 
record will remain open for two weeks for additional comments 
and written questions from the Members.
    The hearing is adjourned. Thank you.
    [Whereupon, at 12:30 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                  Answers to Post-Hearing Questions
Responses by Dr. Howard Gruenspecht
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Responses by Dr. Susan Tierney
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record



         EIA report submitted by Representative Jim Bridenstine

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Documents submitted by Representative Gary Palmer

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
